<html>
<title> - ON THE FRONT LINE: HOW GOVERNORS ARE BATTLING THE COVID-19 PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   ON THE FRONT LINE: HOW GOVERNORS ARE 
                     BATTLING THE COVID-19 PANDEMIC

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 2, 2020

                               __________

                           Serial No. 116-111
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                        
                        
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-808 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                          
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair
JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts, Vice Chair        MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     2
    Prepared statement...........................................     4
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     5
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................    10
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    11
    Prepared statement...........................................    12

                               Witnesses

Hon. Jared Polis, Governor, State of Colorado....................    16
    Prepared statement...........................................    19
    Answers to submitted questions...............................    89
Hon. Gretchen Whitmer, Governor, State of Michigan...............    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................    92
Hon. Asa Hutchinson, Governor, State of Arkansas.................    36
    Prepared statement...........................................    39
    Answers to submitted questions...............................    98

                           Submitted Material

Letter of April 9, 2020, from Governor Jared Polis and Federico 
  Pena, Chair, Council of Economic Stabilization and Growth, to 
  U.S. Senator Michael F. Bennet, et al., submitted by Ms. 
  DeGette........................................................    85

 
  ON THE FRONT LINE: HOW GOVERNORS ARE BATTLING THE COVID-19 PANDEMIC

                              ----------                              


                         TUESDAY, JUNE 2, 2020

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:33 a.m., via 
Cisco Webex online video conferencing, Hon. Diana DeGette 
(chair of the subcommittee) presiding.
    Members present: Representatives DeGette, Schakowsky, 
Kennedy, Ruiz, Kuster, Castor, Sarbanes, Tonko, Clarke, Peters, 
Pallone (ex officio), Guthrie (subcommittee ranking member), 
Burgess, McKinley, Griffith, Brooks, Mullin, Duncan, and Walden 
(ex officio).
    Also present: Representatives Butterfield, Welch, Dingell, 
Bilirakis, Walberg, Carter, and Gianforte.
    Staff present: Kevin Barstow, Chief Oversight Counsel; 
Jesseca Boyer, Professional Staff Member; Jeffrey C. Carroll, 
Staff Director; Austin Flack, Staff Assistant; Waverly Gordon, 
Deputy Chief Counsel; Tiffany Guarascio, Deputy Staff Director; 
Zach Kahan, Outreach and Member Service Coordinator; Chris 
Knauer, Oversight Staff Director; Kevin McAloon, Professional 
Staff Member; Kaitlyn Peel, Digital Director; Peter Rechter, 
Counsel; Tim Robinson, Chief Counsel; Benjamin Tabor, Staff 
Assistant; Jen Barblan, Minority Chief Counsel, Oversight and 
Investigations; Mike Bloomquist, Minority Staff Director; Diane 
Cutler, Minority Detailee, Oversight and Investigations; Tyler 
Greenberg, Minority Staff Assistant; Brittany Havens, Minority 
Professional Staff Member, Oversight and Investigations; 
Tiffany Haverly, Minority Communications Director; Peter 
Kielty, Minority General Counsel; Ryan Long, Minority Deputy 
Staff Director; Alan Slobodin, Minority Chief Investigative 
Counsel, Oversight and Investigations; and Everett Winnick, 
Minority Director of Information Technology.
    Ms. DeGette. The Subcommittee on Oversight and 
investigations hearing will now come to order.
    Today, the Subcommittee on Oversight and Investigations is 
holding a hearing entitled ``On the Front Line: How the 
Governors are Battling the COVID-19 Pandemic.'' The purpose of 
today's hearing is to examine States' responses to the COVID-19 
pandemic, including efforts to increase testing capacity.
    Due to the COVID-19 public health emergency, today's 
hearing is being held remotely. All Members and staff will be 
participating via videoconferencing. As part of our 
proceedings, microphones will be set on mute for the purpose of 
eliminating inadvertent background noise. Members and 
witnesses, you will need to unmute your microphone each time 
you wish to speak.
    If at any time during the hearing I have technical 
difficulties and I am unable to chair the meeting, then the 
chairman of the full committee, Chairman Pallone, will serve as 
chair until I am able to return.
    Documents for the record can be sent to Benjamin Tabor at 
the email address that we've provided to staff. All documents 
will be entered into the record at the conclusion of the 
hearing.
    And the Chair will now recognize herself for purposes of an 
opening statement.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    I want to thank all of our witnesses for appearing before 
the subcommittee, and we look forward to all of your testimony. 
All of you three Governors have a unique perspective to give 
us, and we look forward to hearing it.
    And I just want to say also, as a moment of personal 
privilege, that you've been dealing with the very, very 
difficult events of the last few days, and I know all of us 
have been grappling with the terrible, terrible murder in 
Minnesota, and then the peaceful demonstrations and some of the 
disruptions after that. So it really means a lot to us that you 
would take the time to come and talk to our committee about the 
coronavirus epidemic, and we just thank you very much.
    Today, the Energy and Commerce Committee is holding its 
first virtual hearing. As the oldest standing committee in the 
House of Representatives, this is an historic occasion for the 
Congress and this committee, and this unusual setting is a 
testament to unprecedented times. Nonetheless, the 
responsibilities of the subcommittee continue, most importantly 
with oversight of our committee's response to COVID-19.
    We've come a long way in our fight against COVID-19, but we 
must not get complacent. New cases and deaths are still rising 
in some States, and public health experts warn of a second wave 
if we relax social distancing measures without sufficient 
safeguards, such as contact tracing and testing. Committee 
leaders have repeatedly emphasized that widespread testing is 
key to both monitoring the spread of coronavirus and enabling 
States and communities to safely reopen.
    But 6 months into the crisis, there is still not enough 
testing being done. The Trump administration has a long record 
of broken promises when it comes to testing. Back in the first 
week of March, Vice President Pence estimated that 1.5 million 
tests would be available by the end of the week, but a week 
later, only 4,000 tests had been conducted across the country, 
according to the COVID Tracking Project.
    We all remember when President Trump visited the CDC on 
March 6 and declared, quote, ``Anybody that needs a test can 
have a test. They're all set. They have them out there.'' Those 
infamous words were simply untrue, with States and doctors 
across the country pleading for more tests.
    Then, on March 15th, HHS said that 1.9 million tests would 
be available the next week, calling it a, quote, ``game 
changer.'' A week later, only 250,000 tests had been conducted 
nationwide in total, far short of the 1.9 million that had been 
promised.
    And, again, on March 19th, the FDA staff told committee 
staff that over 27 million tests would be available by March 
28. That was clearly an absurd promise because, even today, in 
a country with over 329 million people, only about 17 million 
tests have been conducted. And still, the administration keeps 
overpromising. As recently as May 11, President Trump said 
again, quote, ``If people want to get tested, they get 
tested.''
    When it comes to testing, this has just been untruth after 
untruth. President Trump's strategy for testing has been to 
bury his head in the sand and hope that the pandemic 
miraculously disappears. If we are going to give the American 
public confidence that they can resume familiar activities and 
safely return to work, we need to greatly expand testing to 
more people, including asymptomatic people.
    Some public health experts estimate that the U.S. needs to 
be testing at least twice as many people as it is right now, up 
to 7 million per week. This will require more engagement by the 
administration, which so far has not happened. And the fall is 
going to present an entirely new challenge for us. Nearly every 
State is already in the process of reopening. And without a 
vaccine, we will face a possible second wave of coronavirus 
infections just at the same time we enter the influenza season. 
So now is the time to get it right.
    The administration is promising 40 to 50 million tests per 
month by September. I would like to give them the benefit of 
the doubt, but with this track record, the administration 
simply has no credibility in this matter.
    Let's be clear: The States and Governors on the front lines 
of this crisis are working round the clock, doing everything 
they can to address shortages and help their communities, but 
there's only so much that any one Governor can do in this 
global crisis without clear, effective leadership from the 
Federal Government. As more communities reopen this summer and 
as we head into the fall, we cannot repeat the chaos we saw 
this spring, with States scrambling for tests and competing 
with one another for critical supplies.
    Again, I'm grateful to the witnesses today for taking the 
time as they oversee the COVID-19 responses in their States. 
Governors Whitmer and Hutchinson, I thank you for bringing your 
insight into this issue. And I want to thank my homie, Governor 
Polis, who's right around the corner from me right now, who has 
really been at the helm in Colorado.
    While 20-to-50-year-olds represent the majority of cases 
here in Colorado, of course, we all know it's the elderly who 
are suffering the most severe effects, including death. And, 
like many other States, communities of color in Colorado have 
been disproportionately impacted by this disease. Each of the 
three of you has a monumental task before you, and it's 
important that the committee hear from you about the challenges 
you face and what more you need from Congress and the 
administration.
    We've come a long way, and I look forward to hearing from 
the witnesses about the progress made in their States, how we 
might replicate that success elsewhere, and what we can do to 
help as we move forward throughout the summer and the fall. 
It's a national emergency, and only a coordinated national 
effort will allow us to emerge from this crisis.
    [The prepared statement of Ms. DeGette follows:]

                Prepared Statement of Hon. Diana DeGette

    Today, the Energy and Commerce Committee is holding its 
first virtual hearing. As the oldest standing committee in the 
House of Representatives, this is an historic occasion for the 
Congress and this committee, and this unusual setting is a 
testament to unprecedented times. Nevertheless, the 
responsibilities of this subcommittee continue, most 
importantly, with oversight of our country's response to COVID-
19.
    We have come a long way in our fight against COVID-19, but 
we must not get complacent. New cases and deaths are still 
rising in some States, and public health experts warn of a 
second wave if we relax social distancing measures without 
sufficient safeguards, such as contact tracing and testing.
    Committee leaders have repeatedly emphasized that 
widespread testing is key to both monitoring the spread of 
coronavirus, and enabling States and communities to safely 
reopen. But six months into this crisis, there is still not 
enough testing being done.
    The Trump administration has a long record of broken 
promises when it comes to testing.
    Back in the first week of March, Vice President Pence 
estimated that 1.5 million tests would be available by the end 
of the week, but a week later only 4,000 tests had been 
conducted across the country, according to the COVID Tracking 
Project.
    We all remember President Trump visited the CDC on March 
6th and declared [quote], ``Anybody that needs a test can have 
a test. They're all set; they have them out there.'' Those 
infamous words were simply a lie, with States and doctors 
across the country pleading for more tests.
    Then on March 15th, HHS said that 1.9 million tests would 
be available in the next week, calling it a [quote] ``game 
changer.'' A week later, just over 250,000 tests had been 
conducted in total--far short of the 1.9 million that had been 
promised.
    And on March 19th, FDA told committee staff that over 27 
million tests would be available by March 28th. That was 
clearly an absurd promise, because even today, in a country 
with over 329 million people, only about 17 million tests have 
been conducted.
    And still, the Trump administration keeps overpromising. As 
recently as May 11th, President Trump said [quote] ``if people 
want to get tested, they get tested.''
    When it comes to testing, this administration has told lie 
after lie. President Trump's strategy for testing has been to 
bury his head in the sand and hope this pandemic miraculously 
disappears.
    If we are going to give the American public confidence that 
they can resume familiar activities and safely return to work, 
we need to greatly expand testing to more people, including 
asymptomatic people.
    Some public health experts estimate that the U.S. needs to 
be testing at least twice as many people as it is right now--up 
to 7 million per week. That will require more engagement by the 
administration, which so far has not risen to the occasion.
    This fall will present an entirely new challenge for us. 
Nearly every State is already in the process of reopening--and 
without a vaccine, we will face a possible second wave of 
coronavirus infections, just as we enter influenza season. So 
now is the time to get it right.
    The administration is promising 40 to 50 million tests per 
month by September. I would like to give them the benefit of 
the doubt, but with their track record, this administration 
simply has no credibility.
    Let's be clear. The States and Governors on the front lines 
of this crisis are working around-the-clock, doing everything 
they can to address shortages and help their communities. But 
there is only so much any Governor can do in this global crisis 
without clear, effective leadership from the Federal 
Government.
    As more communities reopen this summer, and as we head into 
the fall, we cannot repeat the chaos we saw this spring with 
States scrambling for tests and competing with one another for 
critical supplies.
    I am grateful to the witnesses today for taking the time 
out of their busy schedules as they oversee the COVID-19 
responses in their States. Governors Whitmer and Hutchinson, I 
thank you for bringing us your insight into this issue. And I 
also thank Governor Polis from my State of Colorado, which has 
been hard-hit by the coronavirus--especially in Denver.
    While 20-to-50-year-olds represent the majority of cases 
here in Colorado, it is the elderly who are suffering the most 
severe effects, including fatality. And, like many other 
States, communities of color in Colorado have been 
disproportionately impacted by this disease.
    Each of these Governors has a monumental task before them, 
and it is important for the committee to hear from them about 
what challenges they face, and what more they need from 
Congress and the Trump administration.
    We have come a long way--and I look forward to hearing from 
the witnesses about progress made in their States, and how we 
might replicate that success elsewhere.
    But these States cannot do it on their own. This is a 
national emergency, and only a coordinated national effort will 
allow us to emerge from this crisis.
    I yield back.

    Ms. DeGette. And, with that, I am happy to yield 5 minutes 
to the ranking member of the subcommittee, Mr. Guthrie, for 
purposes of an opening statement.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Guthrie. Thank you very much. I thank you for yielding. 
And I want to appreciate the Governors for being here today. A 
little connection to all of you. Governor Polis, you may not 
remember it, but you're the first person I met when I got to DC 
as a new Member. We were checking in for new Member orientation 
together. And great to hear that your kids are doing well, 
Marlon is doing well.
    Governor Hutchinson, I don't have a degree, but three 
family members have degrees from Harding University in Searcy, 
Arkansas, and very proud and a great school.
    And Governor Whitmer, my wife and I, when I first left the 
Army, lived in Grand Rapids. I was studying--my family's in 
automotive supply, so we lived off 28th Street and Breton right 
at the corner in a little apartment and worked in Grandville.
    So I appreciate the opportunity for you to be here, 
particularly during these challenging times, dealing with the 
ongoing coronavirus pandemic and now the unrest.
    My own home State of Kentucky and city of Louisville is 
grappling with the tragic death of Breonna Taylor, and now 
another businessperson, David McAtee, was killed, I think, 2 
days ago. And so we're all going through these together. I know 
we're going to work through these issues and come out a better 
country at the other end, and proud of the hard work you guys 
are doing.
    There are a lot of important oversight hearings that we 
need to have on the COVID-19 pandemic, and I'm glad the first 
Oversight and Investigations hearing that I worked with the 
chair together on is focused on the critical issue of COVID-19 
testing.
    The Federal Government and States have faced many 
challenges in increasing COVID-19 testing capacity. This is 
especially true in my home State of Kentucky. In mid-April, 
Kentucky's daily testing rate was below 20 per 100,000 
residents. Thankfully, Kentucky has significantly increased its 
testing capacity over the last few weeks, and Kentucky has now 
exceeded the daily average amount of testing recommended by the 
White House.
    The Federal Government has made substantial efforts for 
States to increase testing capacity. Given the increased 
worldwide demand, there have been shortages of various 
components needed to collect samples and perform the tests, 
including swabs, transport media, reagents, and personal 
protective equipment. I appreciate how rapidly the Federal 
Government, the States, and the private sector have acted to 
help address these supply issues. For example, through 
Laboratory Diagnostic Testing Task Force, the Federal 
Government and industry have developed a better understanding 
of challenges in the supply chain and expected inventory. And 
HHS and FEMA have worked diligently to address these issues, 
including by obtaining swabs and biotransport media for States. 
The Federal Government also used the Defense Production Act to 
increase domestic production of swabs.
    In addition, the FDA is continuously working to promote the 
development of diagnosis tests for COVID-19 in order to achieve 
a more rapid testing capacity. As of May 27th, the FDA had 
worked with more than 400 test developers and had authorized 
113 tests under emergency-use authorization, including 100 
molecular tests, 12 antibody tests, and one antigen test. All 
of these efforts have enhanced U.S. testing capacity over the 
last month.
    The U.S. has achieved more than 400,000 tests a day several 
times, nearly hitting 500,000 tests in a single day last week. 
States are reaching recommended levels of COVID-19 testing. 
Kentucky's testing target for May is about 2.95 percent, which 
exceeds the Federal Government's recommendation that States 
test 2 percent of their population in May and June.
    The Federal Government and States have also worked 
diligently to develop and implement testing plans. The Trump 
administration recently released an 81-page COVID-19 strategic 
testing plan. According to the report, HHS anticipates that the 
U.S. will be able to perform 40 to 50 million tests by 
September, including about 25 million point-of-care tests.
    All of this hard work is not only important to improve the 
immediate response to COVID-19 pandemic, but to also prepare 
for a possible second wave of COVID-19 cases. Committee 
Republicans have been closely examining current issues on how 
to best prepare for a second wave of COVID-19 cases.
    Today, we released a report on the first pillar of our work 
focused on COVID-19 testing and surveillance. We expect to 
release the rest of the work as it is finalized. The 50-page 
report that was released today addresses a number of important 
issues related to COVID-19 testing, ranging from biodetection 
testing and antibody testing to contact tracing and 
surveillance.
    One issue we examine in this work, and I hope we talk about 
today, is how we can make sure that we are best prepared for 
potential overlap of COVID-19 and influenza cases in the fall. 
I am looking forward to the conversation we're going to have 
today. I greatly appreciate all three of our witnesses and 
Governors for taking time from their extremely busy schedules 
to be here. And while we made a lot of improvement over the 
last few months, our work is not done. And as we continue to 
work on drafting more legislation responding to the COVID-19 
pandemic, it is especially important to hear State 
perspectives.
    I thank you ,and I yield back.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared Statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this important 
virtual hearing today.I also want to thank the Governors for 
taking the time out of their busy schedules to join us today. 
These are challenging times, first with responding to the 
ongoing coronavirus pandemic and now with unrest around the 
country. My home State of Kentucky has been grappling with the 
tragic death of Breonna Taylor. I appreciate you all coming 
today as we work together through these issues.
    There are a lot of important oversight hearings that we 
need to have on the COVID-19 pandemic, and I am glad the first 
Oversight and Investigations hearing is focused on the critical 
issue of COVID-19 testing.
    The Federal Government and States have faced many 
challenges in increasing COVID-19 testing capacity. This has 
been especially true in my home State of Kentucky. In mid-
April, Kentucky's daily testing rate was below 20 per 100,000 
residents. Thankfully, Kentucky has significantly increased its 
testing capacity over the last few weeks, and Kentucky has now 
exceeded the daily average amount of testing recommended by the 
White House.
    The Federal Government has made substantial efforts for 
States to increase testing capacity. Given the increased, 
worldwide demand, there have been shortages for various 
components needed to collect samples and perform the tests, 
including swabs, transport media, reagents, and personal 
protective equipment (PPE). I appreciate how rapidly the 
Federal Government, the States, and the private sector have 
acted to help address these supply issues.
    For example, through the Laboratory Diagnostic Testing Task 
Force, the Federal Government and industry have developed a 
better understanding of challenges in the supply chain and 
expected inventory, and HHS and FEMA have worked diligently to 
address these issues, including by obtaining swabs and viral 
transport media for States. The Federal Government has also 
used the Defense Production Act to increase domestic production 
of swabs.
    In addition, the FDA is continuously working to promote the 
development of diagnostic tests for COVID-19 in order to 
achieve more rapid testing capacity. As of May 27, the FDA had 
worked with more than 400 tests developers and had authorized 
113 tests under Emergency Use Authorizations, including 100 
molecular tests, 12 antibody tests, and 1 antigen test.
    All of these efforts have enhanced U.S. testing capacity. 
Over the last month, the U.S. has achieved more than 400,000 
tests a day several times, nearly hitting 500,000 tests in a 
single day last week. States are reaching recommended levels of 
COVID-19 testing. Kentucky's testing target for May is about 
2.95 percent, which exceeds the Federal Government's 
recommendation that States test 2 percent of their population 
in May and June.
    The Federal Government and States are also working 
diligently to develop and implement testing plans. The Trump 
administration recently released an 81-page COVID-19 Strategic 
Testing Plan. According to the report, HHS anticipates that the 
U.S. will be able to perform 40 to 50 million tests per month 
by September, including about 25 million point-of-care tests.
    All of this hard work is not only important to improve the 
immediate response to the COVID-19 pandemic, but also to 
prepare for a possible second wave of COVID-19 cases. Committee 
Republicans have been closely examining current issues and how 
to best prepare for a second wave of COVID-19 cases. Today, we 
released a report on the first pillar of our work focused on 
COVID-19 testing and surveillance. We expect to release the 
rest of the work as it is finalized.
    The 50-page report we released today addresses a number of 
important issues related to COVID-19 testing, ranging from 
viral detection testing and antibody testing to contact tracing 
and surveillance.
    One issue we examine in this work that I hope we can talk 
about today is how we can make sure that we are best prepared 
for the potential overlap of COVID-19 and influenza cases in 
the fall. The development of combined diagnostic testing kits 
for both COVID-19 and influenza would allow providers to 
quickly determine whether a patient is infected with influenza 
or COVID-19. The FDA has already issued two EUAs for laboratory 
diagnostic tests that detect numerous respiratory viruses, 
including both COVID-19 and influenza. We need to continue to 
prepare for the possible resurgence of COVID-19 cases in the 
fall when influenza season begins.
    I am looking forward to the conversation. I greatly 
appreciate all three of our witnesses taking the time out of 
their busy schedules to testify today.
    While we have made a lot of improvements over the last few 
months, our work is not done. As we continue to work on 
drafting more legislation responding to the COVID-19 pandemic, 
it is especially important to hear State perspectives.

    Ms. DeGette. I thank the gentleman for yielding back.
    I would advise Members, in case you are unaware of this, 
there is a window on your screen that says ``123 Clock,'' and 
this will count down from 5 minutes for either your statements 
or questioning, and then it will start going over. And if 
that's not working for you, try clicking on it, and we hope 
that it will work.
    The Chair now will recognize the chairman of the full 
committee, Mr. Pallone, for 5 minutes for purposes of an 
opening statement. Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. I want to thank Chairwoman DeGette for doing 
this. The chairwoman has been very much involved during this 
COVID crisis and doing some really excellent oversight and 
investigation, and so, Diana, I particularly want to thank you 
for that and for putting this together today.
    And I also want to mention the other Coloradan, Governor 
Polis--because I always love to see our former colleagues 
become Governors or Senators or President or whatever--and the 
other Governors, too, for being with us today.
    We've had, in my district, several peaceful protests over 
the last few days, so I've been happy with the fact that they 
have been peaceful, and hopefully that continues in our State 
and throughout the country. But the hearing today is basically 
continuing our work to confront COVID-19 and to hear from 
Governors about what more the Federal Government can and should 
be doing to help in our Nation's response.
    It's essential that we unite to combat this virus so that 
we can save lives, protect communities, and safely reopen our 
economy, and the only way that we're going to do that is 
through a coordinated national strategy that increases testing 
and dedicates sufficient resources to contact tracing, 
surveillance, and containment.
    Unfortunately, President Trump continues to refuse to put 
in place a national strategy for moving forward. And it's just 
the latest example, in my opinion, of the President's failures 
to properly recognize the crisis that we face. At first, the 
President scoffed at those who were raising alarm about COVID-
19, and insisted the virus would go away. And then, as the 
threat became more undeniable, he refused any responsibility. 
And for months, he has failed to develop and implement a 
national testing program with clear goals and plans for 
achieving them.
    And this failure of leadership at the national level has 
forced States to fend for themselves, oftentimes competing 
against each other on the open market for critical tests, 
personal protective equipment, ventilators, and other resources 
they need to fight this virus. And States were essentially 
bidding against each other, which drives up prices for the 
resources that will continue to be needed in the weeks and 
months ahead. And this is not the way to combat a national 
public health crisis. And, of course, being in New Jersey, 
which is one of the hardest-hit States, I'm particularly 
concerned about this, but I care about it for the whole 
country.
    The President continues, in my opinion, to abdicate his 
responsibility. So House Democrats took bold action last month 
by passing the HEROES Act. This legislation provides critical 
healthcare resources that are needed, including up to $75 
billion in grants to support robust testing, contact tracing, 
surveillance, and containment activities.
    The HEROES Act also finally requires the Trump 
administration to develop comprehensive and coordinated 
strategies for testing, contact tracing, and surveillance, and 
provides greater transparency in real time around supplies, 
testing, and infection rates, and the HEROES Act requires clear 
benchmarks and timelines and brings public accountability to 
this entire process.
    And we, also in the HEROES Act, shore up our public health 
infrastructure by replenishing much-needed medical supplies, 
modernizing how we use the Strategic National Stockpile, and 
installing a medical supplies response czar. We also require 
the administration to provide clear accounting for the work 
being done now in preparation for the manufacturing and 
distribution of a future vaccine, and identify what more must 
be done to ensure that the vaccine can be swiftly available to 
all who need it.
    The HEROES Act also puts in place clear guidelines for how 
an additional $100 billion in resources for the Provider Relief 
Fund should be distributed and ensures those resources are 
allocated to our hospitals and front-line healthcare providers 
in an equitable and efficient way.
    Now, because of the Governors, I also want to mention that 
the HEROES Act supports States' Medicaid programs by increasing 
the Federal Matching Assistance Percentage, or FMAP, by 14 
percentage points, and increases Federal payments for Medicaid 
services for patients in home and community-based care. And 
this is critical to States that are facing dire financial 
situations as the results of the pandemic, and it allows them 
to continue providing essential healthcare services.
    Now, Governors, I haven't mentioned, of course, the fact 
that we have direct aid for States and municipalities in the 
HEROES Act as well. That's not in our jurisdiction, but 
obviously very important. And it ensures that all COVID-19 
treatment is free without cost-sharing for all Americans, so 
that nobody has to worry about the cost of getting treatment or 
vaccines.
    So, you know, we have that in the CARES Act that the 
testing was free. Now the treatment and the vaccine would be 
free as well. Obviously, I think the Senate should act on this, 
because we're not going to be able to beat this virus without 
the HEROES efforts in place.
    So I just wanted to welcome the three Governors who have 
all faced challenges in responding to this public health 
threat. As the committee continues its oversight under 
Chairwoman DeGette and considers further legislative action, 
it's important for us to hear from the Governors on what's 
working, what isn't working, and what more they need, either 
from the Federal Government or from Congress.
    And I know you guys are on the front line. I know how 
important it is for us to help the Governors and the States, 
and certainly our committee will be fully cognizant as we 
proceed.
    So thank you again, Diana. I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    This virtual hearing will continue our work to confront 
COVID-19, and to hear from Governors about what more the 
Federal Government can and should be doing to help in our 
Nation's response.
    It's essential that we unite to combat this virus so that 
we can save lives, protect communities and safely reopen our 
economy.
    The only way we can do this is through a coordinated 
national strategy--a strategy that increases testing and 
dedicates sufficient resources to contact tracing, 
surveillance, and containment.
    Unfortunately, President Trump continues to refuse to put 
in place a national strategy for moving forward. It is just the 
latest example of the President's failures to properly 
recognize a crisis before us. At first, President Trump scoffed 
at those who were raising alarm about COVID-19 and insisted the 
virus would go away. Then, as the threat became undeniable, he 
refused any responsibility. For months he has failed to develop 
and implement a national testing program, with clear goals and 
plans for achieving them.
    This failure of leadership at the national level has forced 
States to fend for themselves--oftentimes competing against 
each other on the open market for the critical tests, personal 
protective equipment, ventilators and other resources they need 
to fight this virus. States are essentially bidding against 
each other--driving up prices for the critical resources they 
will continue to need in the weeks and months ahead. This is 
not the way to combat a national public health crisis.
    While the President continues to abdicate his 
responsibility, House Democrats once again took bold action 
last month by passing the HEROES Act. This legislation will 
provide critical healthcare resources that are needed, 
including up to $75 billion in grants to support robust 
testing, contact tracing, surveillance, and containment 
activities.
    This legislation will also finally require the Trump 
administration to develop comprehensive and coordinated 
strategies for testing, contact tracing, and surveillance, and 
provide greater transparency, in real-time, around supplies, 
testing, and infection rates. The HEROES Act requires clear 
benchmarks and timelines and brings public accountability to 
this entire process.
    We also shore up our public health infrastructure by 
replenishing much-needed medical supplies, modernizing how we 
use the Strategic National Stockpile, and installing a Medical 
Supplies Response czar. We also require the administration 
provide clear accounting for the work being done now in 
preparation for the manufacturing and distribution of a future 
vaccine and identify what more must be done to ensure that the 
vaccine can be swiftly available to all who need it.
    The HEROES Act also puts in place clear guidelines for how 
an additional $100 billion in resources for the Provider Relief 
Fund should be distributed, and ensures these resources are 
allocated to our hospitals and frontline healthcare providers 
in an equitable and efficient way.
    The legislation supports States' Medicaid programs by 
increasing the Federal Matching Assistance Percentage, or FMAP, 
by 14 percentage points and increases Federal payments for 
Medicaid services for patients in home and community-based 
care. This is critical to States that are facing dire financial 
situations as a result of the pandemic, and it will allow them 
to continue providing essential healthcare services.
    Our legislation also ensures that all COVID-19 treatment is 
free, without cost sharing for all Americans so that nobody has 
to worry about the costs of getting treatment or vaccine for 
this virus.
    The Senate should act on this legislation immediately. We 
simply cannot beat this virus without these efforts in place.
    Let me welcome our three Governors who have all faced 
challenges in responding to this public health threat. As the 
committee conducts its oversight and considers further 
legislative action, it is important for us to hear from the 
Governors on what's working, what isn't working, and what more 
they need--either from the Federal Government or Congress. I 
thank all of you for joining us today to share your views from 
the front line of this pandemic.
    It is clear that we must collectively find solutions to 
stop the spread of this devastating virus so that we can safely 
and confidently reopen our communities and our economy.
    I yield back.

    Ms. DeGette. I thank the gentleman. And I'm now pleased to 
recognize the ranking member of the full committee, Mr. Walden, 
for 5 minutes for purposes of an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, good morning, Madam Chair, and Chair 
Pallone, and to our Governors, welcome. This is an important 
hearing.
    I want to say at the outset, just on a technical note, 
apparently C-SPAN has not been able to get the audio up for 
this hearing. So one of those things if the public is trying to 
watch it on C-SPAN, they're not going to be able to hear your 
opening statements, at least not yet.
    I was pleasantly surprised to see that accommodations were 
made so those of us in Washington could meet here in our 
committee room. As you know, in approving the hearings, the 
Rules Committee recommended House committees make such 
accommodations. And, as we all know, the Health Subcommittee 
proved we could safely conduct our business with a hearing 2 
weeks ago in this room.
    Several committees have held either in-person or hybrid-
style hearings in the Capitol Office Building in recent weeks, 
and many of the members of this subcommittee are here in 
Washington today. So I urge the chairman to continue to 
accommodate in-person participation of Members going forward.
    Meanwhile, I want to welcome the Governors. With all the 
challenges we are facing as a Nation, from the pandemic we're 
discussing today to the unrest in the wake of the tragic death 
of George Floyd, we deeply appreciate your making time to be 
with us today.
    States are, indeed, what Justice Brandeis called 
laboratories of democracy, testing different policies for their 
individual circumstances. And I look forward to learning about 
your successes in responding to the pandemic, the remaining 
challenges, what you got right, what you got wrong, and how the 
State and Federal partnership can be strengthened to ensure 
these challenges can be successfully addressed going forward.
    Look, there's no question, facing a once-in-a-century 
global pandemic, Federal, State, and local health systems 
encountered some difficulties in ramping up diagnostic testing, 
working out the logistical details of complex global supply 
chains. However, it is only fair to now acknowledge that 
tremendous progress has been achieved over the last few weeks.
    The efforts of the White House, President Trump, the 
Federal agencies to get full visibility into various supply 
chains in a very short period of time, and then obtain 
necessary supplies for the Nation's testing and other needs, 
while competing for them globally with the rest of the world, 
it's been nothing short of a remarkable undertaking, while 
Federal officials, such as Dr. Brett Giroir and Admiral John 
Polowczyk, have been candid, clear-eyed, and open about the 
enormity of standing up a testing structure in the middle of a 
pandemic emergency.
    Nearly every State is now in a better position to test 
anybody they have determined to be a high priority. Congress 
stepped up to the plate in the CARES Act and other stimulus 
packages with billions of dollars in funding for States to use 
for more testing and more contact tracing.
    These actions are getting results. Since the beginning of 
this pandemic, many experts have argued the U.S. needs to reach 
a level of conducting 500,000 COVID-19 tests a day. In May, the 
United States achieved more than 400,000 tests a day several 
times. With vastly more rapid point-of-care testing, at-home, 
and saliva-based testing, and antigen testing, are expected to 
be rolled out in the coming weeks, this benchmark is expected 
to rapidly increase.
    Look, there's no question that some States have responded 
to this pandemic better than others, both in focusing resources 
to address the public health crisis and positioning their 
States to responsibly reopen. For example, in Arkansas, I 
understand you've already met the federally recommended goal of 
testing 2 percent of your population in a month through May and 
aim to reach 3 to 4 percent of your population monthly by June.
    Health and Human Services' strategic testing plan projects 
that, by September, the United States may be able to conduct up 
to 50 million tests per month, or more than 1.6 million tests 
per day. At more than 1.6 million tests a day, the U.S. would 
not only easily exceed the goal of half a million tests a day 
but would also surpass the Harvard Global Health Institute's 
recommendation of 900,000 tests per day to contain the 
outbreak.
    The HHS strategic plan on testing shows a serious and 
honest effort. It outlines a pathway toward providing more 
resources and more assistance to States for more and better 
testing in order to manage risks and allow our economy to 
safely reopen.
    So I thank all of our distinguished witnesses today for 
appearing. Especially, I want to express my appreciation to 
Governor Asa Hutchinson, who on very short notice agreed to 
work us into his schedule.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Chair DeGette, I was pleasantly surprised to see 
accommodations were made so that those Members who are here in 
Washington, DC, could meet in the hearing room. In approving 
virtual hearings, the Rules Committee recommended that House 
committees make such accommodations.
    The Health Subcommittee proved we could safely conduct our 
business with a hearing 2 weeks ago.
    Several committees have held either in-person or hybrid-
style hearings in the Capitol office buildings in recent weeks. 
Many of the members of this subcommittee are here in Washington 
today. This hearing could have easily followed suit.
    I urge my friend, Chairman Pallone, to continue to 
accommodate the in-person participation of Members going 
forward.
    Meanwhile, I want to welcome the Governors. With all the 
challenges we are facing as a nation, from the pandemic we are 
discussing today, to the unrest in the wake of the tragic death 
of George Floyd, we deeply appreciate your making time to be 
with us today.
    States are indeed what Justice Brandeis called 
``laboratories of democracy,'' testing different policies for 
their individual circumstances. I look forward to learning 
about their successes in responding to the pandemic, the 
remaining challenges, and how the State and Federal partnership 
can be strengthened to ensure these challenges can be 
successfully addressed.
    There is no question, facing a once-in-a-century global 
pandemic, the Federal, State, and local health systems 
encountered some difficulties in ramping up diagnostic testing 
and working out the logistical details of complex, global 
supply chains. However, it is only fair to now acknowledge the 
tremendous progress that has been achieved over the last few 
weeks. The efforts by the White House and Federal agencies to 
get full visibility into various supply chains in a very short 
period of time, and then obtaining necessary supplies for the 
Nation's testing and other needs while competing for them with 
the rest of the world, has been nothing short of remarkable, 
while Federal officials such as Dr. Brett Giroir and Admiral 
John Polowczyk have been candid, clear-eyed, and open about the 
enormity of standing up a testing structure in the middle of a 
pandemic emergency.
    Nearly every State is now in a better position to test 
anybody they have determined to be a high priority. Congress 
stepped up to the plate in the CARES Act and other stimulus 
packages with billions in funding for States to use for more 
testing and contact tracing.
    These actions are getting results. Since the beginning of 
this pandemic, many experts have argued that the U.S. needs to 
reach a level of conducting 500,000 COVID-19 tests a day. In 
May, the U.S. achieved more than 400,000 tests a day, several 
times. With vastly more rapid point-of-care testing, at-home 
and saliva-based testing, and antigen testing are expected to 
be rolled out in the coming weeks, this benchmark is expected 
to rapidly increase.
    There is also no question that some States have responded 
to this pandemic better than others, both in focusing resources 
to address the public health crisis and positioning their 
States to responsibly reopen. For example, Arkansas has already 
met the federally recommended goal of testing 2 percent of its 
population in a month for May and aims to reach 3 to 4 percent 
of its population monthly after June.
    The HHS strategic testing plan projects that by September 
that the U.S. may be able to conduct up to 50 million tests per 
month, or more than 1.6 million tests per day. At more than 1.6 
million tests a day, the U.S. would not only easily exceed the 
goal of 500,000 tests a day but would also surpass the Harvard 
Global Health Institute's recommendation of 900,000 tests per 
day to contain the outbreak.
    The HHS strategic plan on testing shows a serious and 
honest effort. It outlines a pathway toward providing more 
resources and more assistance to States for more and better 
testing in order to manage risks and allow our economy to 
safely reopen.
    I thank of all of our distinguished witnesses for appearing 
today. I especially express my appreciation to Governor Asa 
Hutchinson, who on very short notice, agreed to work us into 
his schedule.

    Mr. Walden. With that, Madam Chair, I would yield back the 
balance of my time. I understand you wanted me to introduce 
Governor Hutchinson, so I am prepared to do that whenever you'd 
like.
    Ms. DeGette. OK. We'll do it in just a minute. I thank the 
gentleman for yielding back and ask unanimous consent----
    Mr. Griffith. Madam chair. Sorry, go ahead. It's Morgan. I 
have my hand up.
    Ms. DeGette. For what purpose does the gentleman from 
Virginia rise?
    Mr. Griffith. Point of order.
    Ms. DeGette. The gentleman will state his point of order.
    Mr. Griffith. Madam Chair, since House Resolution 965 
governs this meeting generally, and section 4 specifically 
deals with proceedings in committee and section 4(b) puts 
limitations on business meetings, including, and I quote, ``A 
committee shall not conduct a meeting remotely or permit remote 
participation at a meeting under this section until a member of 
the committee submits for printing in the Congressional Record 
a letter from a majority of the members of the committee, 
notifying the Speaker that the requirements for conducting a 
meeting in regulations referred to in subsection (h) have been 
met and that the committee is prepared to conduct a remote 
meeting and permit remote participation,'' end quote.
    And recognizing that the regulations promulgated in 
accordance with subsection 4(h) of House Resolution 965 in 
regulation section 1(i), the definitions section, it states, 
and I quote, ``Proceedings or committee proceedings refers to 
meetings, hearings, or depositions, as appropriate,'' end 
quote.
    And, in light of the full Energy and Commerce Committee 
having failed to comply with these regulations submitted by the 
chairman of the Rules Committee in accordance with House 
Resolution 965, or even to comply with the letter requirements 
of section 4(b) of House Resolution 965, is it not true that 
these proceedings, by whatever name, cannot lawfully conduct 
business, such as swearing in witnesses or even having Code 
Section 18 U.S.C. Section 1001, relating to perjury apply?
    Ms. DeGette. The Chair thanks the gentleman for his 
parliamentary inquiry. H.R. 965 refers to business meetings, 
not hearings, and the committee has met all of the requirements 
for regular hearings under the House rules.
    Mr. Griffith. Under the--Madam Chair, exception.
    Ms. DeGette. I ask unanimous consent that Members' written 
opening statements be made part of the record, and, without 
objection, so ordered.
    I'd now like to introduce the witnesses for today's 
hearing. First, I'd like to introduce Governor Jared Polis, the 
Governor of the State of Colorado, no stranger to this 
committee, or most of the members of this committee. The 
Governor has been working very hard with the entire Colorado 
congressional delegation, House and Senate Democrats and 
Republicans on the coronavirus issue, and we appreciate it 
very, very much.
    I would now turn to Congresswoman Dingell to introduce her 
Governor.
    Mrs. Dingell. Thank you, Madam Chair.
    Challenging times demand decisive and compassionate 
leaders. I'm grateful to all of the Governors that are here 
today, and the Dingell family has had long histories with all 
of them. But Governor Whitmer is such a leader. I'm proud to 
introduce her today. She's a lawyer and an educator, a former 
prosecutor, and a lifelong Michigander dedicated to public 
service, and she is a close friend.
    Months into the COVID-19 pandemic, the numbers are 
devastating. Michigan has been hit harder than most States. 
We're the fourth highest in deaths in the country. We have 
nearly 2 million people unemployed, one in four, and lives have 
been forever changed.
    Throughout this pandemic, Governor Whitmer has taken swift 
actions to flatten the curve and blunt the spread of COVID-19. 
There is much that this committee can learn from how Michigan 
has responded. And, as the States begin the reopening phase, 
there is much we need to learn on what challenges still remain, 
the resources that are still needed, and the actions that we 
can take.
    I want to just make this personal comment, that the 
Governor is a friend. And after she saw the modeling numbers of 
the potential deaths that could happen in Michigan, she called 
me. She took personal responsibility for the potential death of 
everybody in our State. And she's been a true leader, and I am 
honored that she accepted the invitation today.
    I thank all the Governors for testifying today. We thank 
you for your service and your leadership through these 
difficult times, and we look forward to hearing all of your 
valuable testimony.
    Thank you, and I yield back.
    Ms. DeGette. I thank the gentlelady.
    The Chair now recognizes Mr. Walden to introduce our former 
colleague, Governor Hutchinson.
    Mr. Walden. Well, thank you, Madam Chair.
    And welcome to all of the Governors. Governor Asa 
Hutchinson is a friend of many of us, a former colleague to 
many of us. He was elected to the U.S. House in 1996 and served 
in this body until President George W. Bush appointed him 
Administrator of the Drug Enforcement Administration and later 
Undersecretary for Border and Transportation Security at the 
U.S. Department of Homeland Security.
    Earlier in his career, President Reagan appointed Governor 
Hutchinson as U.S. Attorney for the Western District of 
Arkansas. Governor Hutchinson was first elected Governor of 
Arkansas in 2014 and reelected in 2018. He and his wife, Susan, 
have four children and six grandchildren. We thank him for 
taking time out of his very busy schedule to lend his 
experience and expertise to us on these issues.
    Madam Chair, I do want to advise that the Governor will 
have to leave the hearing today at 2 p.m., and I thank your 
indulgence for excusing him as a witness at that time. I know 
he had a preconflict that he couldn't get out of.
    So, with that, we're delighted Asa could join us, and Jared 
and the Governor from Michigan as well. And I will yield back.
    Ms. DeGette. I thank the gentleman. And the Chair is aware 
of Governor Hutchinson's previous commitment. We're just glad 
that you could join us, Governor, along with your two 
colleagues.
    Now, I know all three of you are aware the committee is 
holding an investigative hearing, and when doing so we have the 
practice of taking testimony under oath. Do any of you have any 
objections to testifying under oath?
    Let the record reflect the witnesses have responded no. The 
Chair then advises you under the rules of the House and rules 
of the committee, you are entitled to be accompanied by 
counsel. Do you desire to be accompanied by counsel during your 
testimony today?
    Governor Polis. No.
    Governor Whitmer. No.
    Governor Hutchinson. No.
    Ms. DeGette. Let the record reflect the witnesses have 
responded no.
    I won't make you stand up, but if all of you could please 
raise your right hand so you may be sworn in.
    [Witnesses sworn.]
    Ms. DeGette. Let the record reflect the witnesses have 
responded affirmatively.
    You are now under oath and subject to the penalties set 
forth in Title 18, Section 1001 of the United States Code.
    The Chair will now recognize our witnesses for a 5-minute 
summary of their written statements. As I mentioned earlier, 
there's a timer on your screen that will count down your time, 
and it turns red when your 5 minutes have come to an end.
    And so, Governor Polis, we will recognize you for 5 
minutes.

   STATEMENT OF HON. JARED POLIS, GOVERNOR, STATE OF COLORADO

    Governor Polis. Good morning, and thank you for the 
invitation to testify. Starting the stopwatch here. Thank you, 
Chairwoman DeGette. You've done an amazing job in this crisis 
and beyond, and I appreciate this hearing. Thank you, Ranking 
Member Guthrie, a pleasure working with you. It's great to see 
you in this capacity. Thank you, Chairman Pallone and Ranking 
Member Walden and members of the committee.
    I want to provide an overview of the steps that we've taken 
in Colorado, with the hope that some of the successful 
practices that we've implemented here can be an example for 
other States, for the Federal Government, and for other nations 
that are dealing with the coronavirus. We started by setting 
realistic goals. We know that, given freedom of movement 
throughout the United States, it would be impossible to 
eradicate the virus in Colorado or America until there's a cure 
or vaccine.
    So, on the public health side, our focus from the very 
start has been to save lives by limiting the spread of the 
virus, protecting the most vulnerable, particularly older 
Coloradans in congregate care facilities, supporting our 
healthcare providers, making sure that people have access to 
all forms of healthcare, including for non-COVID-related 
healthcare, and doing everything we can to acquire testing 
equipment and personal protection equipment, and being as smart 
as we can with the use of these limited resources, and really, 
as a benchmark making sure we preserve the ability of our 
healthcare system to meet the needs of every critical patient 
that comes through the door, COVID or non-COVID, so not to 
overwhelm our healthcare system.
    And on the economic side, we also understood, from the 
early days, the economic implications of this crisis, and we've 
taken a number of extraordinary measures to help small 
businesses and workers, and made strategic decisions about 
reopening, really taking into account the economic, social, and 
psychological needs of Coloradans as well as the health goals.
    We confirmed our first case in the beginning of March. We 
since found out that, like much of the country, we likely had 
COVID before that in our State, and we began to take action to 
reduce the spread of the virus, which was on an exponential 
growth curve at that time.
    Based on what our modeling was telling us, we needed to 
really severely limit the number of person-to-person 
interactions to about 75 to 80 percent reduction from the 
normal baseline. On the other side of the spectrum, the model 
showed that, taking no action, the virus would have killed over 
30,000 Coloradans by now.
    So March 25th, we imposed a stay-at-home order, which 
lasted until April 26th. That was a very difficult decision to 
make. As a former business owner, I know the effort it takes to 
keep small businesses profitable even in good times.
    And as Governor of a State with the fastest-growing economy 
in the Nation and amazing quality of life, it really pained me 
greatly to see Coloradans out of work, stuck inside, businesses 
temporarily closed. But that monthlong stay-at-home order was 
critical to slow the spread of COVID-19, to build additional 
hospital capacity, including critical care beds, and acquire 
more testing and PPE for our workforce.
    One of the most important things we did is we stood up an 
innovation response team with some of the best minds from the 
private sector who went--volunteered full-time to help us work 
through the issues in the supply chain for testing, and for 
PPE.
    And, during this period, we enacted a number of important 
measures to help individuals and businesses weather the 
economic storm, including short-term paid sick leave for 
workers so they didn't feel that they had to go to work sick 
and spread the virus; expanding childcare benefits for front-
line workers; helping small businesses and individuals make 
ends meet by delaying when they had to pay and file their 
income tax, their sales tax, and their property tax; a 
temporary moratorium on evictions and foreclosures; and taking 
commonsense steps to lift regulations, like eliminating the 
prohibition on takeout or delivery of alcohol, which helped 
restaurants stay in business.
    We set up a private relief fund at HelpColoradoNow.org to 
help meet the needs of Coloradans across the State. I'm proud 
to say we've raised over $18 million from philanthropic, 
corporate, and individual donors. And we also convened in the 
early days a Council on Economic Stability and Recovery, 
chaired by former U.S. Transportation Secretary and Denver 
mayor Federico Pena. This bipartisan council of business 
leaders from across our State has already put forward 
recommendations for executive actions, State legislation, and 
for Federal consideration.
    Madam Chair, I ask that the letter to the Colorado 
delegation dated April 9, 2020, from Secretary Pena and myself 
be placed into the record and considered.
    Ms. DeGette. Governor, we will hold that to the end, as 
announced at the beginning, with all the other documents. Thank 
you.
    Governor Polis. Thank you. And as cases began to level off 
and trend downward, we ended the stay-at-home order on April 27 
and replaced it with Safer-at-Home. Safer-at-Home really allows 
for a greater degree of economic and social activity, while 
keeping the rate of infection low. It has four main points: 
scaling up testing and capability; developing a mask-wearing 
culture in our State to make person-to-person interactions 
safer; having Coloradans with underlying health conditions, 
including seniors, stay home whenever possible; and greater 
social distancing among the general population. We've also 
expanded this month for more outdoor opportunities for people 
to enjoy our great vast outdoors at a safe social distance. 
With our beautiful Colorado June and July weather, we encourage 
people to get out in a safe way at a distance from others.
    I've been straightforward and honest with the people of my 
State from the very start, that there will be some level of 
social distancing restrictions until there is a cure or 
vaccine. We simply need to find a sustainable way to live with 
COVID-19.
    So thank you for the opportunity to testify, and I look 
forward to answering your questions.
    [The prepared statement of Governor Polis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Governor.
    Now, I'm pleased, Governor Whitmer, to recognize you for 5 
minutes for your opening statement.

STATEMENT OF HON. GRETCHEN WHITMER, GOVERNOR, STATE OF COLORADO

    Governor Whitmer. Thank you, Chair DeGette, Ranking Member 
Guthrie, full House Chair Pallone, Ranking Member Walden, and 
members of the subcommittee. Thank you all for the opportunity 
to speak with you about COVID-19, its impact on the State of 
Michigan, and how we worked to confront this unprecedented 
public health crisis. Representatives Dingell and Walden, thank 
you for your efforts on behalf of Michigan. And, of course, 
Governors Polis and Hutchinson, I'm glad to be with you.
    On March 10th, the day that Michigan confirmed our first 
cases of COVID-19, I declared a state of emergency. Michigan 
had a unique struggle with COVID-19 pandemic because, despite 
being the 10th most populous State, we spent several weeks with 
the third-highest number of cases and deaths in the Nation. As 
of today, we've recorded 57,000 positive cases, and over 5,500 
COVID-19-related deaths.
    In response to this pandemic, we've had to take aggressive 
measures to fight the spread of COVID-19, to prevent the rapid 
depletion of our State's critical healthcare resources, and to 
lower the chance of a devastating second wave.
    There was a time in March when a number of metro Detroit 
hospitals lacked enough masks, face shields, gowns or gloves to 
last a single day. The Federal Government delivered several 
allocations of PPE from the Strategic National Stockpile, but 
they were dangerously insufficient to meet our needs in the 
early days of the virus' spread.
    During that same time, on a call with the Nation's 
Governors, we were told we would have to procure these items on 
our own. Without time to waste, we set up a global procurement 
arm of our SEOC. We tracked down every lead. Some panned out, 
some were dead ends, and some were deadbeats. But in the heat 
of the Nation's early days and the lack of a national strategy, 
and failure to use the DPA to produce PPE, lives were on the 
line and necessitated these actions.
    By mid-April, though, our hard work of our procurement 
office, private donations, nimble Michigan businesses, and with 
the assistance from FEMA, the State had PPE to last for several 
weeks, and that is true today. We're truly grateful for the 
materials that we've received. However, if Federal supplies 
could be allocated more quickly with a detailed breakdown in 
advance and shipped at a regular cadence, we would be able to 
hit our goals and ensure that we prevent a second wave.
    Absent a vaccine or cure, tracing and testing are the 
foundation of a COVID-19 response. Throughout much of April, 
our State averaged about 5,000 tests a day. Now we have reached 
almost 15,000 a day, with our real goal being 30,000 tests a 
day.
    Despite the progress that we've made, the single biggest 
threat to our ability to hit these goals is supply shortages 
that continue to significantly restrict Michigan's testing 
capability. I've conferred with many of my colleagues, and I 
know this is not unique to Michigan. We need the White House to 
create a specific long-term plan outlining how the Federal 
Government will assure we've got adequate testing supplies, so 
we can gather the data we need to make informed decisions about 
reengaging our economies, as we would all benefit from a 
guarantee of free testing nationwide, coupled with a robust 
Federal messaging campaign.
    The economic havoc wreaked on State residents and our 
government budgets by the coronavirus has been severe. We have 
now processed more unemployment claims in a single day than 
during the worst week of the Great Recession. We've already 
reached the highest unemployment rate since the Great 
Depression.
    Right now, the language in the CARES Act does not give us 
the flexibility we need to address our revenue shortfalls. A 
broader solution is needed. And I thank the House of 
Representatives for your work, and I'm hopeful that the greater 
Congress can come together and get it done.
    The COVID-19 pandemic has also highlighted the 
disproportionate impact on communities of color. African 
Americans are 13.6 percent of our resident population, and yet 
represent a staggering 40 percent of deaths in Michigan. Our 
Lieutenant Governor, Michigan's first African-American 
Lieutenant Governor, is heading up our Task Force on Racial 
Disparities, a task force that is dedicated in the memory of 
Skylar Herbert, the youngest person in Michigan to lose the 
battle with coronavirus at the age of 5. Both her parents are 
first responders.
    As we reengage Michigan's economy through the My Safe Start 
Plan, we need to make sure that we avoid a second wave of 
infections at all costs. We've made incredible progress pushing 
down our curve and saving lives in Michigan. Our phased-in 
reopening plan is informed by the best public health experts in 
our country.
    I'm glad to participate today to tell Michigan's story. 
We're resilient and we're tough, and it's that determination 
I'm tremendously proud of and I know will sustain us in these 
challenging times. I look forward to our discussions.
    [The prepared statement of Governor Whitmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Governor.
    It's now time for members of the subcommittee to ask 
questions, and the Chair will now recognize herself for 5 
minutes.
    Mr. Walden. Aren't we going to hear from Governor 
Hutchinson?
    Ms. DeGette. Oh, I'm so sorry. Governor, I'm so sorry.
    Mr. Walden. I mean, we only have one Republican witness 
that we should hear from.
    Ms. DeGette. I know, and he's a Republican that I love, 
because he was my colleague. I'm so sorry.
    Governor, you are recognized for 5 minutes. Sorry about 
that.

 STATEMENT OF HON. ASA HUTCHINSON, GOVERNOR, STATE OF ARKANSAS

    Governor Hutchinson. No problem at all. And thank you, 
Madam Chairwoman. It is good to see you again, and I do recall 
our days serving in Congress together.
    Ranking Member Guthrie, thank you for this opportunity. And 
I want to say hello and thank my good friend, Ranking Member 
Greg Walden, for the invitation today and for his friendship 
through the years. Of course, Chairman Pallone, it is good to 
see you again as well.
    And I am delighted to be here with my fellow Governors, who 
each one of us has faced different challenges in our respective 
States, perhaps in different ways, but it reflects the 
uniqueness of each State and the decisions that have to be 
made. And I certainly respect every decision that was made by 
other Governors reflecting their State.
    Our fight against COVID-19 began on March 11, when testing 
revealed our first case in the State. I immediately declared an 
emergency from that day on, and we took this very seriously, 
and we took quick and appropriate, aggressive measures to 
minimize the impact.
    We had a dual mission. Our first mission, of course, was to 
protect the health of our citizens, especially those that were 
deemed to be most at risk. Our second mission was to minimize 
the economic harm to individual families, because it costs 
them, it hurts them in so many different ways.
    Today, we are in phase one of our recovery. And to put it 
in perspective, we have about 7,500 cases in Arkansas, we have 
121 hospitalized, and we have had 133 Arkansans die of COVID-
19. These numbers, as the other Governors will attest, are very 
minimal in terms of what we see in so many other States. Our 
hospitalization rate and death rate are low compared nationally 
and to our region.
    When it comes to testing, we are testing more each day. In 
late April, we were testing 1,000 to 1,500 tests each day. I 
set as a goal that we would test 2 percent of our population in 
the month of May, which would have been 60,000 Arkansans. We 
exceeded that goal in May. In fact, we tested over 80,000 
Arkansans in the month of May. And so the testing has 
accelerated greatly. During the last 7 days, our positivity 
rate has been right at 5 percent. Over the last 30 days, it's 
been about 7 percent, well below the national standard that has 
been recognized of 10 percent. In June, our goal in terms of 
testing is to test every resident in every nursing home in 
Arkansas, including all staff.
    Our testing is done through a combination of our Department 
of Health, our University of Arkansas Medical Sciences, and 
then the commercial labs. And then the employers are doing an 
extraordinary job of starting their own testing programs 
through commercial labs.
    Whenever it comes to following up with our contact tracing, 
to put it in perspective, when we started this pandemic, we had 
three nurses at our Department of Health that were responsible 
for contact tracing. Three. Today, we have over 200 that are 
doing contact tracing, and that is an important part of our 
infrastructure for avoiding and handling the future, in terms 
of a potential wave.
    The most frequent question I get asked is, Why did you not 
issue a shelter-in-place order in Arkansas? And, again, I 
respect every Governor as to the decision that they had to 
make, but our decision for our State in not issuing a shelter-
in-place order was in combination with our public health team, 
and we believe it was the right direction for our State.
    My public health team advised that a stay-at-home order 
would not significantly slow the spread of COVID, and I knew a 
stay-at-home order would cost thousands more Arkansans their 
jobs, and possibly cause more businesses to close permanently. 
Instead, we doubled down on our message that encouraged 
Arkansans to follow social distancing guidelines, to wash their 
hands often and well, and to wear masks in public. I trusted 
the citizens of my State with good information to act 
responsibly in their personal choices, and they did. There's 
always a few outliers, but they have followed those guidelines.
    From the beginning, we proceeded cautiously in terms of our 
targeted restrictions on businesses. We calculated which 
businesses were more at risk. We put more restrictions there, 
and now, of course, we've been gradually releasing and lifting 
those restrictions.
    As I said, our rates are among the lowest in the Nation. 
Our hospitals have never come close to filling up. Our supply 
of ventilators is more than adequate. We even offered to send 
five ventilators to a fellow State that was in need.
    In terms of the private sector, I want to acknowledge their 
support. Walmart particularly has helped us to set up mobile 
testing sites across the State. Our poultry industry, which has 
been a challenge for us, but they are a critical essential 
industry, and they have begun their own testing within their 
plants. They engaged their own contact tracing, which was very 
impressive to me, that they don't simply rely upon the 
government to do that. They have their own health clinics, and 
they provide paid time if quarantine is necessary.
    And so, with that, we have over 60 processing plants in 
Arkansas, and none of them are currently shut down. They're all 
operational, and people are working.
    In terms of the economy, just like everyone else, we 
projected a significant loss of revenue to our State budget. In 
fact, we projected a 10 percent loss of revenue from sales 
taxes. But our economy has been stronger, has suffered less of 
a loss, and we're coming in at less than 5 percent of a loss in 
terms of sales tax revenue.
    Today, we're issuing our revenue report that will show that 
we're above our revised forecast, which is still down from last 
year, but we're beating the projections significantly in terms 
of our recovering economy. And we look forward to having more 
success in the future. We have an Economic Recovery Task Force 
that's going to be leading that effort that Steuart Walton is 
chairman of and have leading Arkansans that are supporting that 
effort.
    With that, I'm very grateful for the opportunity to tell a 
little bit of Arkansas' story and look forward to the questions 
from the committee.
    [The prepared statement of Governor Hutchinson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you so much, Governor. And thanks to all 
of our witnesses.
    Now the Chair will recognize herself for 5 minutes for 
questioning. And let me begin by saying, as the members of the 
O&I Subcommittee know, we have a long history of examining 
pandemic preparedness. In fact, we've had 11 hearings in the 
last 15 years in this subcommittee on pandemic preparedness. 
And the most recent one, many of you will recall, was on 
December 4th, where we had many of the players who you see, 
including Dr. Fauci and Dr. Redfield and others, come and 
testify. And these officials have spoken candidly about the 
challenges that we would face during a pandemic. And, so, I was 
pretty appalled that the Federal leadership and systems failed 
as dramatically as they did when we actually did get a 
pandemic, because of all the assurances that we had had.
    Governor Whitmer, in your testimony, you stated, quote, 
``The overall Federal response on this front has been uneven. 
The uncertainty about the availability of supplies and the 
Federal Government's role in directing the allocation of these 
supplies has hindered our ability to coordinate our testing 
strategy.''
    Governor, could you elaborate further on this uneven 
Federal response, and how it impacted Michigan's ability to 
combat COVID, particularly in the testing realm?
    Governor Whitmer. Sure, I'd be happy to. Thank you for 
giving me the opportunity to flesh this out a bit for you. On 
the whole, our experience working with the administration, I 
think ``uneven'' is the right word. We are truly grateful for 
the supplies that we have received and for the ongoing 
assistance that we've gotten out of FEMA Region V and their 
team, as well as HHS and the CDC.
    I'll just say that uncertainty about supplies, however, and 
the Federal Government's role in directing the allocation of 
these supplies, has really undermined our ability to coordinate 
a testing strategy. In the early months of the pandemic, 
testing supplies were extremely limited. Information was 
scarce, and the Federal Government's role in supporting testing 
was narrow. In May, we began receiving, you know, significant 
numbers of swabs and transport media, which was a commitment 
from HHS and FEMA for 450,000 swabs and over 300,000 transport 
media.
    Now, while we are appreciative, we're often given very 
little information in terms of when that is going to be coming 
in. The information that we're given sometimes is inaccurate 
about what types of supplies are being shipped, what we 
anticipate receiving, and so it's made our planning very 
difficult. If supplies could be allocated more quickly and if 
we had a detailed breakdown of what was actually in the 
shipment, we could, you know, mobilize and ensure that we can 
make the best use of these supplies and hit our capacity. We 
have a capacity to do 25,000 tests a day in Michigan right now, 
and because we're lacking these fundamental pieces of doing the 
tests or because we can't plan on them with certainty, it's 
really--we haven't been able to achieve that 25,000 a day yet. 
And I think that's the biggest concern that I have.
    I know that it was raised a question about the flu season. 
My chief medical expert in Michigan is just absolutely worried 
about flu season when it comes to supplies, when it comes to 
testing, when it comes to our ability to meet the needs.
    Ms. DeGette. Thank you, Governor.
    And, Governor Polis, you also--we've talked about this on 
our delegation calls, but also in your testimony, you testified 
about how Colorado was caught off guard by the conflicting 
messages and lack of support for the Federal Government as to 
what Colorado would get. Can you elaborate on that?
    Governor Polis. Yes. I think the most important things that 
we could do better with on the Federal side is on transparency 
and really knowing what we're going to get when. Consistency 
and transparency. A lot of discussions that left us as a State 
not knowing--not with a no, not with a yes--are there going to 
be masks? Are there going to be tests? Delivery dates that 
weren't met, but even greater, kind of sort of vague 
commitments at certain levels without that transparency level 
to know, at this point in time, this is what you'll get at this 
point in time.
    That makes it very hard for a number of reasons, because we 
have to go out and then purchase our own. And if, in fact, the 
Federal Government does come through at a certain date at a 
certain time, then we might have too much of something and not 
enough of something else.
    So, if we're going to plan in coordination with our Federal 
partners, we need to make sure we have all the cards on the 
table, everybody knows exactly what we're going to get when and 
what we're not going to get when, and then the States try to 
fill in in the holes.
    Ms. DeGette. And so, you think that's the kind of plan we 
would need as we look forward to the fall and beyond?
    Governor Polis. Yes. We would love a way where it's very 
clear to the States exactly what they will and won't get and, 
you know, within reasonable parameters, and we understand if 
it's, you know, a 2-day, 3-day window for delivery. I mean, no 
one is saying it has to be the exact day, but approximately 
when and what so that States can plan around that and then 
backfill the rest of their needs.
    Ms. DeGette. Governor Whitmer, would you agree with that?
    Governor Whitmer. Absolutely. I think that that's--
absolutely.
    Ms. DeGette. Thank you. Thank you so much.
    Representative Guthrie, you are now recognized for 5 
minutes.
    Mr. Guthrie. Thank you, Madam Chair, and, again, thank you 
all for being here.
    And, Governor Hutchinson, you answered my first question. I 
was going to ask about why you chose not to do a statewide 
order. So I'm going to skip right to the second question. And 
for all of them, I'll just go alphabetical by State if that 
works--Arkansas, Colorado, Michigan--but for all three of you.
    But at the very beginning, Dr. Fauci came before us and 
says, we have to flatten the curve, we have to manage peak 
capacity, and until we get a vaccine, we're really not going to 
have zero cases. And I was on a call with some people and 
somebody said, as you all have experienced the most difficult--
well, a very difficult decision is shutting down different 
parts of the economy. A difficult decision that could be even 
harder is when to open up, because, as we interact more, we 
know there are going to be more cases until we get a vaccine, 
but we can't stay shut down forever.
    And so, my question is, one of your colleagues I saw on 
television, the Governor of Oklahoma, when they were expanding 
interactions, that he was kind of being criticized on 
television, he says, Well, ``I have 300 cases and 4,000 empty 
hospital beds.''
    So I guess my question is, as you look to open up and as we 
interact, there will be flare-ups. I mean, what are you looking 
for? What data does your State look for to determine when you 
can open, and then if you're--what are you looking for to say, 
well, we reopened too much, we need to retract, as you move 
forward, kind of what are you looking for?
    I'll start with Governor Hutchinson.
    Governor Hutchinson. Well, thank you, Congressman. If you 
look back to the very beginning of this, it was all about 
hospital capacity. Well, hospital capacity is not an issue 
anymore in terms of our State, with 150-some or less than that 
hospitalizations. We have over 8,000-bed capacity. We needed to 
go back doing elective surgery. We needed to go back doing 
other procedures. And we've done that here in this State.
    So what do we look at? And it's about the number of cases. 
That's important to know, but it's, more importantly, the 
positivity rate. It is about our contact tracing and the 
success of that, the recovery rate, and how many active cases 
that we have. Those are some of the things that we're looking 
at. Obviously, the end result or the ultimate test is, what are 
the deaths that are being caused from that? And we've been 
fortunate to have a minimal number in Arkansas.
    But if you look at the future, the most important thing is 
that we have to manage this risk. We can't go back and say 
we're going to all be shut down. We've got to go into the fall, 
recognize there could be another wave, but we can't go back 
into sheltering in place. We have to be able to manage through 
this risk, and that is through the testing, that is through the 
contact tracing, and that's through the social distancing until 
we get a vaccine. And that's our strategy.
    We're in phase 1. We're not going to go back, but we're 
going to wait till we open up more until we get a little bit 
more successful data that we can open up even more.
    Mr. Guthrie. OK. Thanks.
    And Governor Polis. And I've got 2 minutes, and I want to 
make sure Governor Whitmer gets a chance to answer. So Governor 
Polis?
    Governor Polis. Yes. You know, I think all Governors share 
a desire to reopen as much as possible as soon as possible, as 
long as it's a sustained opening, right? I don't think anybody 
wants to be in a situation where, because you have too many 
people together--and I don't think there is a State in the 
Nation, for instance, that's having 20,000-person concerts or 
events right now, and there is a reason for that. If that were 
to occur, it would likely lead to mass transmission of the 
virus, going from, you know, dozens of people to hundreds of 
people to thousands of people.
    So you want to do this in a way that has safety guidelines 
around what--the types of aid that occurs. For instance, we 
opened up sometime ago, I think in late April, barber shops and 
salons, and we made sure that both parties were wearing masks, 
that there was limited capacity in them. And so far, it's been 
a relative success story. We haven't heard of transmission 
cases that are linked to them. If there are, they would be 
minimized by that safer behavior.
    So the answer is, as soon as possible in a way that doesn't 
have to be reversed, because it leads to an overwhelming of the 
hospitals.
    Mr. Guthrie. Thank you.
    And Governor Whitmer?
    Governor Whitmer. Sure. Thank you. So I appreciate the 
question, and I think that, because there hasn't been a 
national strategy, each of us has developed our own 
reengagement strategies, and, in Michigan, it's called the MI 
Safe Start. It's six phases. The vast majority of the State is 
in phase 4.
    What we're looking at is the number of tests that we're 
able to perform a day, what the positivity of rates are, what 
is the capacity in our hospitals. All of these things go into 
that. But also working with the business community to develop 
protocols to mitigate risk associated with different sectors of 
our economy.
    The most important thing we need to do is continue to ramp 
up testing in lieu of a vaccine or a cure, and that's precisely 
why getting these supplies is so crucial to reengagement and 
avoiding that second wave, because none of us wants to take 
steps backward. We want to keep moving forward.
    As we look at testing--I know I'm out of time, but as we 
look at testing, I do think it's important to acknowledge we've 
got to be looking at diagnostic testing and not conflating 
serology testing with diagnostic testing. We have to get to 
that 1 to 2 percent of our population.
    And if there is a possibility we could use the Defense 
Production Act to start producing swabs and the types of things 
that are so critical to testing, that's what we should be using 
the DPA for, and I'm hopeful that we will.
    Mr. Guthrie. Thank you very much.
    And I really, really appreciate you guys being here today. 
Thank you very much, and I yield back.
    Ms. DeGette. The gentleman yields back.
    The Chair now recognizes Chairman Pallone for 5 minutes.
    Mr. Pallone. I want to thank the chairwoman. And I really 
want to ask two things of our two Democratic Governors. One was 
to double down, Diana, on what you said about the Federal 
supply chain and the lack of national testing, and then briefly 
something about FMAP.
    My concern is that, you know, I think that Democrats on the 
Energy and Commerce Committee--I guess I'm being a little 
partisan now--really do not trust the President to implement 
any kind of national strategy for the supply chain, the 
testing, or even the vaccines, and his constant effort to say, 
well, it's the States' responsibility, it's the States' 
responsibility, I don't believe that.
    And so, as Democrats on the committee, we have tried in the 
CARES Act, in the bill that followed, the interim bill, and now 
in the HEROES Act, to really be more prescriptive to try to 
have some kind of uniform national policy, and also a lot of 
transparency, which both Whitmer and Jared Polis mentioned.
    So I wanted to ask Governor Whitmer and then Governor 
Polis, if you look at what's in the HEROES Act, which is what 
we really wanted to do from the beginning--what we do is we 
have a supply chain czar, we require a national chain of 
command, and we have all kinds of transparency along the lines 
of what you said to make sure that you know exactly what the 
goals are, what's being delivered, what isn't, and when.
    And then, with regard to the testing, we--you know, we 
would say that there has to be a national goal. I mean, right 
now, in Arkansas, is at 2 percent goal; New Jersey, 7 percent; 
Rhode Island is 14 percent. Governor Polis, you said, you know, 
people can travel from one State to the next. We have freedom 
of movement, so that doesn't work. And so we say that the 
testing has to be nationalized in the sense that there are 
clear goals, there are benchmarks, there are timetables, you 
know, for what do you do to--what testing level to achieve for 
opening schools, what testing levels for employers. A lot more 
detail.
    If the two of you could just tell me what you think about 
that, you know, have comment a little, start with Whitmer and 
then Polis quickly, and then I'd like to ask a question about 
FMAP, if we could, briefly.
    Governor Whitmer. OK. So there's no question that the 
testing is the thing that we need to do more of nationally. I 
can tell you, in Michigan, the things we're worried about are 
making sure that we've got the plastics, you know, the swabs, 
the reagents. These are critical components of doing this 
robust testing that every epidemiologist and public health 
expert is telling us that we need.
    You know, we can debate about international manufacturing, 
but we have paid a price for the fact that these things have 
not been produced in the United States. And I would just submit 
that a national strategy to ensure that we have these test kits 
is the most important thing that the Federal Government really 
needs to take the reins on.
    Having States bid against one another for supplies has 
created a shortage, has driven up the price, and has left us 
with deep and serious holes in a national policy, and I think, 
absent a national policy, just having the supply so we can 
execute on the front line is crucial. And FMAP's been great. I 
hope you extend it through June of next year.
    Mr. Pallone. And, Governor Polis, you particularly 
mentioned the fall. You know, I'm concerned that if we don't 
have a national czar and we don't have these national, you 
know, policies in place with specific benchmarks and 
transparency, we're going to have the same problem with 
vaccines. Dr. Bright testified before our Health subcommittee 
and basically said that.
    So would you comment on that, and particularly as it 
relates to the fall and the next step in terms of the supply 
chain and national czar and a national strategy?
    Governor Polis. Thank you, Mr. Chairman. It is important 
that we do have a mechanism in place for national coordination 
on vaccine delivery, or there's going to be even greater free-
for-all around that when we reach that fortunate date. Just 
like we have at the State, with our county health departments--
in our State, each county has a health department. Some of them 
are multicounty. The State plays a coordinating role, and the 
delivery of services of testing is locally administered. I 
think what I would like to see in the ideal world is the 
Federal Government playing that coordinating role, and then, of 
course, the actual work is locally administered by States and 
by counties.
    We were particularly thrilled that in the HEROES Act it set 
a 14 percent FMAP increase. I can tell you the importance of 
that to States like Colorado and others is absolutely critical 
for the recovery from this crisis.
    Mr. Pallone. So, as you know, we increased it from 6.2 to 
14. And, Governor Whitmer, would you support that as well for 
FMAP?
    Governor Whitmer. Absolutely. We know that the economic 
crisis will outlast a lot longer than the health crisis, and 
this is something that's been really important in Michigan as 
well.
    Mr. Pallone. Thank you both.
    And thank you, Chairwoman DeGette.
    Ms. DeGette. Thank you so much, Mr. Pallone.
    The Chair now recognizes Ranking Member Walden for 5 
minutes for questioning.
    Mr. Walden. Thank you, Madam Chair. And, again, thanks to 
our Governors for your leadership and your participation today.
    One of the things going forward we're trying to look at is 
nursing home deaths. And I know that different States dealt 
with this issue differently in the early stages and some clear 
into probably a month ago that sent COVID-positive patients 
back to nursing homes. I think that happened in New York.
    Each of you, how did you handle that issue with COVID-
positive nursing home patients? Did you have them go back to 
the nursing homes from whence they came? And maybe we start--
Asa, do you want to start, and then maybe Governor Whitmer, and 
then----
    Governor Hutchinson. Well, sure. And, first of all, we 
would never send a COVID-positive patient into an environment 
in which they would expose others. Yes. So in any congregate 
setting, whether it be the prison or whether it would be a 
nursing home--obviously totally different--but we would make 
sure that the positive patients were totally separated from 
those that tested negative----
    Mr. Walden. OK.
    Governor Hutchinson [continuing]. And they wouldn't be 
required, of course, to go back there.
    And so, you know, we've had challenges like everybody else, 
but our public health has just done an extraordinary job of 
going in and testing every resident that, whenever there's a 
positive case, and dealing with it head-on.
    Mr. Walden. All right. And I understand, on CMS data that 
came out today, your rate of deaths per thousand in nursing 
homes is 6 percent, and I think Colorado is 28 percent, and 
Michigan shows up at 63 percent.
    So is there a different policy in Colorado or in Michigan?
    Governor Polis. Who are you addressing the question to?
    Mr. Walden. Let's go to Michigan first.
    Governor Whitmer. OK. Sure. So I--63 percent, that is not 
an accurate number from the data that----
    Mr. Walden. It's--I'm sorry. It's 63.6 per thousand nursing 
home deaths----
    Governor Whitmer. So 23 percent is roughly what our number 
has been, and we know that people living in nursing homes in 
Michigan and across the country have faced unbearable 
devastation from COVID-19.
    Like Governor Hutchinson said, we have taken efforts to 
ensure that, if a resident, after being discharged with a 
COVID-19 diagnosis, was going back to a nursing home, they are 
separated, that the protocols are very strict about what that 
looks like. And no COVID-19 patient has been--no nursing home 
is required to take a COVID-19 patient, and that's something 
we----
    Mr. Walden. All right.
    Governor Whitmer [continuing]. Felt was the right thing to 
do. We've had strict protocols around who can go into these 
congregate care settings----
    Mr. Walden. All right.
    Governor Whitmer [continuing]. And really prioritize PPE 
and testing in those facilities.
    Mr. Walden. Governor Polis?
    Governor Polis. Yes. We set up a residential care task 
force in April that really helped address some of these issues. 
The team's been working to ramp up the testing of asymptomatic 
workers at senior care facilities, both through the Colorado 
National Guard as well as in a partnership with Colorado State 
University.
    We require that every congregate senior care facility in 
the State prepare an isolation plan for their residents----
    Mr. Walden. OK.
    Governor Polis [continuing]. That might have been exposed 
to COVID and not require hospitalization. Those who have had 
cases, have had to implement those plans, which might mean a 
separate wing. It might mean--of course it means things like 
making sure there's not roommates and dining areas. And, of 
course, the best way to prevent the deaths at nursing homes and 
senior care facilities is to prevent the virus from coming in 
in the first place.
    Mr. Walden. Exactly.
    Governor Polis. And that's why testing asymptomatic workers 
is so important.
    Mr. Walden. All right. I'm going to yield the remainder of 
my time to the gentleman from Michigan, Mr. Walberg, who I know 
has some questions as well and has waived on the committee.
    Ms. DeGette. The gentleman is recognized.
    Mr. Walberg. I thank the chair, and I thank the ranking 
member. And it's good to see you, Governor. I appreciate you 
being here. I recognize the fact that we're all doing this for 
the first time, and we're learning as we go, so I appreciate 
that.
    I guess I would just follow up. Being ranked at fifth in 
the Nation for overall deaths in nursing homes, with the most 
recent one I saw from CDC, which was beyond what you have now 
put out, was 1,654 patients who died and 12 staff members on 
top of that.
    Why did it take you so long to change the policy, not only 
of putting COVID patients back in the nursing homes, but also 
reporting? Because it was just, I believe, this past Thursday 
or Friday you began to report, and that report was low, and 
it's been changed since then. But could you inform us why it 
took so long to begin the reports?
    Governor Whitmer. So, Congressman Walberg, I think what 
Michigan has experienced with COVID-19 is different than what 
other States have. We had such exponential growth early on when 
we just started learning about how incredibly contagious this 
disease is and how people can carry it without having a single 
symptom and infect others.
    We were working with the best counsel of our public health 
experts across the country and at the University of Michigan. 
Every policy that we instituted was informed by that data. We 
recognize that, of course, in retrospect, probably a number of 
decisions we would have made some adjustment in, but the fact 
of the matter is, when it comes to the data, one of the 
inherent challenges with COVID-19 is that people don't 
necessarily reflect on a death certificate that it is COVID-19.
    I know a lot of other States have seen exponential 
reporting on their pneumonia cases. Well, if their public 
health goes back and looks, a lot of those could be COVID-19 
deaths. And so I think that that's just the inherent challenge 
here.
    We've done remarkable things in terms of sharing 
information. I'm happy to follow up with you.
    Sorry, Chair.
    Ms. DeGette. The Chair now recognizes----
    Mr. Walberg. I yield back.
    Ms. DeGette [continuing]. The gentlelady from Illinois, Ms. 
Schakowsky, for 5 minutes.
    Game time now.
    Ms. Schakowsky. Am I in now?
    Ms. DeGette. You're in now.
    Ms. Schakowsky. OK. Thank you.
    You know, I was informed of the first case in Illinois on 
January 30 by Dr. Redfield. That is 6 months ago, and we still 
have not bent the curve in the United States. One-point-eight 
million cases yesterday, and, on Sunday, it went--so it went up 
26,000 from Sunday. Other countries have done better.
    And I want to focus also on the hard-hit nursing homes, the 
long-term care facilities. CMS has finally started doing the 
promised releasing of information that they gave 2 months ago 
and said that 26,000 nursing home residents and workers have 
died. Media reports say it's closer to 40,000. In my hometown, 
we know--in my home State, rather, of Illinois--I know that 
nursing homes account for over half of the confirmed COVID-19 
deaths, and in other places in the country, it's as high as 70 
percent.
    And it's just unacceptable that the racial disparities and 
overall COVID-19 cases and fatalities also extend to nursing 
homes. We see higher deaths among African Americans and Latinos 
in Illinois and around the country.
    The COVID-19 crisis in our Nation's nursing homes and long-
term care facilities is a national disgrace, and we have not 
seen help from the Trump administration. They have failed to 
publish data until beginning now; ensure access to testing, 
which is so important; and coordinating of distribution of PPE.
    And I just want to thank the heroes that are going every 
day to work and are suffering from, you know, the challenge 
that they face in those nursing homes and the fact that they 
get up every day and go to work. And I've been in constant 
contact with my Governor, J.B. Pritzker, who is doing his best.
    So Governor Polis and Governor Whitmer, what I'd really 
like to ask you, how have you been keeping long-term care 
residents and workers safe? You mentioned some of those things 
in the last question, and I thank Greg Walden for raising the 
issue. And what do you need from the Federal Government? It 
seems to me that that is an important role for them to play.
    If I could get answers from Governor Whitmer and from our 
good friend, Governor Polis.
    Governor Whitmer. Sure. Well, thank you, Congresswoman, and 
I appreciate your passion on this issue. I know that this is 
something that, as a Nation, we're grappling with how do we do 
a better job keeping people in our congregate care, especially 
people who we know are uniquely susceptible to COVID-19.
    You know, in lieu of a national policy in terms of nursing 
homes, in lieu of all of the robust testing supplies that we 
need, I think it is really incumbent on the Nation's Governors 
to ensure that we have a handle on who's going in and out of 
those congregate care facilities, that we are setting a higher 
standard and getting every single person there tested regularly 
so we are in an ability to isolate.
    That's the key. In lieu of this vaccine and cure, that is 
the most important thing that we can do. And so I would like to 
have every nursing home patient tested regularly, every person 
who's going into a nursing home tested regularly, with a plan 
to give them paid sick leave so that they don't feel compelled 
to come into work if they--if they or someone they know or is 
close to has any symptoms of COVID-19. That's one important 
piece of it.
    And I'll let Jared take the--I've ate up some time. Thank 
you.
    Governor Polis. Yes. Thank you, Congresswoman Schakowsky. 
You know, about two-thirds of our outbreaks in Colorado have 
been in congregate care settings for the elderly, and it's--you 
know, within some variation, it's similar to where many other 
States are. We set up our residential task force in early 
April.
    We also appreciate the effort of the Federal Government to 
deliver personal protective equipment to certified nursing 
homes, but just to put that in perspective, certified nursing 
homes is about 226 in our State. We have about a thousand 
senior congregate care living facilities, so they're just--the 
equipment is only going to a subclassification of the total 
number of places that older Coloradoans live together.
    We have also required isolation planning from all of those 
facilities, and we are rapidly stepping up the testing of 
asymptomatic workers, which is not a one-time thing, right? If 
you test a worker that's asymptomatic and they're negative, 
it's only as good as it is on that day and time. In a fully 
scaled-up scenario, we would love to be testing workers once a 
week to see if we can prevent those infections from even 
reaching those senior care facilities. And we need help with 
the supplies as well as continued testing to help keep it out 
of those facilities.
    Ms. Schakowsky. Thank you, Governor.
    Governor Whitmer. We need some help from the Federal 
Government.
    Ms. DeGette. The Chair now recognizes Mr. Burgess for 5 
minutes.
    You need to unmute, Mike.
    Mr. Burgess. That sound better?
    Ms. DeGette. You bet.
    Mr. Burgess. OK. So thank you to our panelists----
    Ms. DeGette. I kind of like it on the mute, but----
    Mr. Burgess. Yes, I thought you would.
    I want to welcome our panelists, our Governors to the 
hearing.
    Governor Polis, it's good to see you again. Governor Polis 
and I served for what seemed like forever on the House Rules 
Committee. We're doing OK over there, but it's a little less 
exciting without having you there.
    I do want to acknowledge to Governor Hutchinson, although 
I'm from your neighboring State of Texas, I'm related to 
Arkansas by marriage. All of my wife's people are from Prairie 
County.
    So let me just ask all of you to--and we could answer 
whatever order you prefer--the difficulty with getting the CDC 
up to a level where testing was sufficient. Early days, the CDC 
was only putting out single digits of tests at a time where the 
requirement was many, many times that. So the impact to the 
delay that the CDC had on the diagnostic tests in your State, 
I'm interested in hearing from each of you. If we could please 
start with you, Governor Hutchinson.
    Governor Hutchinson. Well, thank you, and come back to 
Prairie County anytime.
    Mr. Burgess. Yes, sir.
    Governor Hutchinson. Good farm country here.
    You know, in terms of--first of all, there's been a lot 
said about the role of the Federal Government. I think every 
Governor recognizes that, early on in this, the supply chain 
was weak, and--but it's gotten stronger and stronger. And, 
today, you know, within 90 days, you know, our Nation has 
actually ramped up its reagents production, the supply chain 
for testing. And I have confidence in that supply chain that 
has been built up both in the private sector and through CDC.
    And also, you know, in terms of the Federal standards, I 
look at the CDC guidelines, and I think they've been very, very 
helpful in setting some national standards for how we reopen 
and how we do gymnasiums and everything from sports to 
churches. Those guidelines are very, very helpful to us as a 
State. Obviously, we can tweak them, but that's what, to me, 
State flexibility is all about.
    You know, in terms of the testing, the CDC has made a 
commitment to us on testing and supply chain, and they're 
fulfilling that. That's the reason we're able to go from, you 
know, a thousand tests a day up to close to 3,000 tests a day. 
It's because the CDC has accelerated their supply chain and 
it's working for us.
    Mr. Burgess. Very well.
    Governor Polis?
    Governor Polis. Yes. I mean, I think that the supply chains 
are in a better place than they were. But the CDC, in the early 
days, we did not count on them. Ultimately, they validated some 
tests, perhaps. We reported, as I think most States did, the 
presumed positives, meaning we validated them in our State lab, 
and the number coming from CDC was so ridiculously low. So, 
once we had a test validated--and we still report our State-
validated tests.
    I don't know how far behind CDC is in validating. I don't 
know what their numbers are, because, honestly, we don't even 
use them or track them anymore. Our State lab and the private 
lab partners are the ones that provide the daily information on 
exactly where we are with the virus.
    Mr. Burgess. Sure.
    And Governor Whitmer?
    Governor Whitmer. Thank you.
    And, you know, I agree with the sentiments of my colleagues 
here. I would just add that, you know, the supply chain crosses 
at State and national borders, and regardless of some of the 
hiccups of the CDC and some of the wasted time early on, 
Michigan's brought on nearly 70 in-State laboratories on 
numerous of high throughput systems. We just cannot be fully 
utilizing what we've created here without a consistent, 
reliable, abundant source of supplies.
    And I think that's the frustration that I have, and I'm 
confident many Governors on both sides of the aisle have as 
well. Testing is crucial to our ability to know what--how vast 
COVID-19 is in our States, to assess if there is a second wave 
and how we bring that from becoming exponential growth. And 
that's, I think----
    Mr. Burgess. So what--we're going to run out of time. Can I 
just ask each of you quickly how you're modernizing your 
State's public health labs?
    Governor Whitmer, we can stay with you.
    Governor Whitmer. Sure. I mean, we have ramped up 
dramatically. We built our own lab early days because we didn't 
want to send results to the CDC and wait for them to come back. 
So we've made incredible strides on that front.
    Mr. Burgess. OK. Governor Polis?
    Governor Polis. Yes. I'm very proud of our State lab. 
They've scaled up to be able to process up to 8,000 tests a day 
from just 200. I think the State labs are very much where it's 
at. A lot of them have risen to the occasion. They're an 
appropriate way for national coordination, local administration 
at State labs across the country.
    Mr. Burgess. And Governor Hutchinson?
    Governor Hutchinson. Well, the same here. And the CARES Act 
funding has helped a great deal as well to beef up the 
infrastructure of our State lab, and we're not only increasing 
our testing, but also building a capacity for antibody testing 
that we'll need very much in the fall as we look to continuing 
to live and function in this environment.
    Mr. Burgess. OK. Thank you.
    I yield back, Chairman.
    Ms. DeGette. I thank the gentlemen.
    The Chair now recognizes Congressman Kennedy for 5 minutes.
    Mr. Kennedy. Madam Chair, thank you. And to our Governors, 
thank you very much for being here. Good to see you again, 
Governor Polis, Governor Whitmer. It's a pleasure to have you 
here, Governor Hutchinson.
    Numerous experts, including former CDC Director Tom 
Frieden, former FDA Commissioner Scott Gottlieb, and former CMS 
Acting Director Andy Slavitt have all stated that robust and 
increased contact tracing capacity throughout the country will 
be essential to contain COVID-19, ensuring that communities can 
safely resume a pre-pandemic life.
    Some States, such as mine here in Massachusetts, were early 
leaders in that front, launching a new collaboration with 
partners in health in early April to establish a virtual call 
center of roughly 1,000 contact tracers. But, according to 
experts, the Nation will need as many as 180,000 contact 
tracers to effectively stem the tide of this virus. Clearly, we 
obviously have a long way to go and investments to make to 
build this critical workforce. So, fortunately, Chairman 
Pallone, as he said, in the HEROES Act, would provide resources 
to help support this workforce and expand contact tracing 
efforts on the ground.
    Governor Polis, I want to start with you. Many experts 
point to robust contact tracing capacity as important for our 
containment efforts, as I said. Do you believe that continued 
increase in contact tracing capacity and building contact 
tracing workforce, both in Colorado and across the Nation, is a 
critical component to your response?
    Governor Polis. Absolutely. A test is only as good as how 
we can better isolate the individual and those who come into 
contact with the individual. There's no proven, effective 
clinical treatment for coronavirus. And, frankly, what most 
doctors will tell somebody who tests positive is you go home 
and get better. If you need hospitalization, don't hesitate to 
get hospitalized.
    So, really, the benefit from testing, because we're, of 
course, encouraging people to self-isolate who are sick, is 
twofold: of course, identifying asymptomatic cases that are 
positive, and then, of course, tracing who came in contact with 
somebody who was contagious at a certain period of time, so 
that we can have targeted isolations and quarantines, so 
certain people--or perhaps placing people who work in a common 
workplace are isolated for 14 days, rather than the societywide 
quarantines and isolations, which are devastating for our 
economy as well as our psychological health and our society.
    So that's really the goal with increased tracking and 
tracing.
    Mr. Kennedy. And, Governor, what obstacles are you 
confronting in trying to staff up the necessary personnel 
that's needed to do this?
    Governor Polis. I would say two, but certainly, we know how 
to do it. There's really two. One is time, meaning it's not 
something that you can turn on. You have to train people. You 
have to get them up to speed. We wish that we could have had 
this a month ago, right, but we are working very hard. We've 
doubled the number of epidemiologists in our State.
    The second is money, right? And some of that was in the 
CARES Act, some of that is in the HEROES Act. But, absolutely, 
especially given the enormous, devastating cuts to State 
budgets, if we're serious about increasing tracking and 
tracing, there'll need to be a Federal role in partnering with 
States to do that.
    Mr. Kennedy. And so, Governor Hutchinson, you had stated in 
your testimony to the Testing Advisory Group that you formed in 
mid-April that there are four recommendations, including 
expanding contact tracing. What challenges have you faced in 
trying to ramp up those capacities, and what else do you need?
    Governor Hutchinson. Well, thank you. And Governor Baker 
and the team there in Massachusetts have done a very good job, 
setting a good example for the Nation. But in terms of the 
challenges, there's many. It is the training. It takes a little 
bit of a unique personality to be able to call somebody up and 
start asking questions about, ``Who have you been in contact 
with over the last few days, and give us that information, and, 
by the way, you need to quarantine and isolate yourself, and 
we're going to check with you every day.''
    That takes some training to be able to handle those calls, 
because it's a very sensitive area, and it's very critical. And 
I think, as time goes on, you're going to get more resistance 
to that, because, if we have 250 cases, that could mean that 
close to a thousand people are going to have to isolate or 
quarantine once you do your contact tracing, and that is a huge 
hit on people's lives, and they're going to have some pushback 
if you--as we go through this.
    But it's absolutely essential to do it, so it is the 
training. Obviously, we're utilizing some CARES Act funding to 
beef that up. You need the right people. And we're looking at 
some private contracts to help us, because when we get an 
immunization for this, we're probably going to have to scale 
back quickly, and we're going to be beefing up for thousands of 
workers, and a contract might be a useful tool to use.
    Mr. Kennedy. Thank you, Governor.
    And real quick, Governor Whitmer--I've only got about 30 
seconds left--I'm curious, from your perspective here--and, 
again, there's a very--you know, heavy urban parts of your 
State, there are rural parts of your State, have you seen a 
difference in terms of engagement there, urban role, with 
regards to contact tracing? You know, what can we do to support 
you?
    Governor Whitmer. Sure. What I will just add to what 
they've said in the last 10 seconds here is technology. We have 
to get people to answer the phone. Our ability to test and 
isolate and trace is dependent on people feeling comfortable to 
share information and to be honest. Not that there's a penalty 
with being honest. So, basically, would be a helpful thing on 
top of a robust campaign federally to get people tested and to 
get them to answer the phone when we start the tracing.
    Mr. Kennedy. I appreciate that. Thank you. Thank you, all. 
Goodbye.
    Ms. DeGette. Thank you.
    The Chair now recognizes Congressman McKinley for 5 
minutes.
    Mr. McKinley. Thank you, Madam Chairman.
    Governor Whitmer, I'm going to direct my questions all to 
you, and I've got three questions, and then, after you can 
answer those, and I've got a followup after that.
    Governor Whitmer, you have been openly critical in the 
media of the Trump administration's response to the pandemic. 
With all due respect, let's take a hard look at some of the 
actions that the Trump administration and CDC have accomplished 
in chronological order.
    On January 7, they established a coronavirus incident 
management system. On January 17, they began implementing 
screening at three U.S. airports. On the 21st, they activated 
emergency operations center. On January 31, the Trump 
administration declared the coronavirus a public health 
emergency. Then, following, on March 12, the World Health 
Organization declared that COVID-19 is a pandemic. The 
following day, the President declared a national emergency.
    But, Governor, you hesitated, and, according to the Detroit 
Free Press, you waited till March 26 to ask for a Federal 
disaster declaration from the President. So, by the time you 
asked for that declaration on March 26, 12 other States had 
already requested and had been approved for that, and almost 60 
Michigan residents had died of COVID-19.
    So--and this is a two-part question there. Governor, do you 
regret not acting sooner? And, secondly, remember that 12 other 
States had already acquired disaster declarations. Do you think 
Michigan should have been put in the front of the line and 
ahead of these other States relative to the Federal stockpile, 
the SNS?
    Second question. Governor Whitmer, on March 27, you told 
radio station WWJ 950 that Michigan was in trouble getting the 
equipment they needed because you allege that the Federal 
Government was telling vendors--the Federal Government was 
telling vendors not to honor the contract they had with 
Michigan. These are serious violations--or allegations. 
Governor, will you release the names of who those vendors were?
    And then the third question. Governor, according to The 
Washington Post, more than 25,000 nursing home residents and 
more than 4,000 nursing home staff have died nationally. That's 
25 percent of all the COVID patients. And as of Friday, at 
least 1,216 nursing home residents have died from COVID in 
Michigan, which is about a quarter of your State's total. Other 
States have instituted mandatory testing of nursing home 
residents and staff, but apparently you have not. Why not, 
Governor?
    Could you answer those questions, please?
    Governor Whitmer. Congressman, thank you for raising these 
questions. And with all due respect, I'm not going to go toe to 
toe with you on every allegation that you've alleged. I will 
say this, though, the United States lost valuable time in the 
early days of COVID-19 when we could have been planning, when 
there could have been a national strategy, when the use of the 
DPA could have been used, not for meat production but for 
swabs, which we still don't have enough of.
    What we know in this country is that the enemy is not one 
another, it's a virus, and the virus doesn't stop at State line 
and it doesn't stop at party line. We have to band together to 
address the crisis that has ravaged our Nation, that has killed 
over 100,000 Americans, that has unemployed 40 million 
Americans. Until we get our arms around the health crisis, the 
economic crisis will be longer and deeper, and that's precisely 
why we have to get this right.
    Now, when I went to the media and I was talking about the 
fact that, because the Federal Government did not have these 
supplies, we were told to procure them on our own, I started 
contracting globally. I never imagined I would have to create a 
global procurement office in the middle of my State emergency 
operation center, but that's what we did. And as our contracts 
were coming due, we were getting calls saying that they were 
going to be delayed or they were going to be canceled. I 
acknowledged that publicly.
    You know what? Republican Governors have acknowledged that 
same thing. For whatever reason, I've gotten the criticism for 
raising that, but I am not alone in that experience. And I 
would direct you to speaking with other Governors to 
acknowledge that, when we are procuring these on our own, we 
necessarily start bidding against one another. And guess who 
tops all of our contracting ability? It's the Federal 
Government.
    So, while Michigan was heating up and exponential growth 
was happening here, it was the Federal Government that was 
where our supplies were getting delayed and distracted to, and 
that's why I was calling on help, because we had one shift's 
worth of PPE at that time.
    Ms. DeGette. The gentleman's time's expired.
    The Chair now recognizes Mr. Ruiz for 5 minutes.
    Mr. Ruiz. Thank you very much, Chair.
    I appreciate everybody being here today. This is very 
informative and very much needed.
    Riverside County, the county in which my district resides, 
like so many others have seen, that the impacts of this 
pandemic have disproportionately and adversely affected 
vulnerable communities--communities of color, low wealth, 
resource-poor communities, and our immigrant communities. Black 
and Latinx individuals are contracting COVID-19, being 
hospitalized due to COVID-19, and are dying from COVID-19 at 
rates that are as much as four times greater than their share 
of the population in the city or the State.
    My question to the Governors joining us today seek to find 
out what actions your States are taking to increase access to 
COVID-19 testing and care for these marginalized communities 
that have taken the brunt of the pandemic.
    Governor Whitmer, in your testimony, you mentioned the 
staggering disproportionate rate of deaths from COVID-19 among 
Black Michiganders. You established the Michigan Coronavirus 
Task Force on Racial Disparities, dedicated to Skylar Herbert, 
to study the causes, impacts of COVID-19, and make 
recommendations to address these related racial inequities.
    How will the task force's findings and recommendations be 
incorporated into Michigan's response to support a more 
equitable system for ensuring access to COVID-19 testing and 
care?
    Governor Whitmer. Congressman, thank you so much for your 
question. I appreciate the nature of it, and I think that, in 
light of everything that is transpiring in our country today, 
it's incredibly important that we talk about the racial 
inequities inherent in COVID-19 and also inherent in our 
criminal justice system and, frankly, beyond.
    That's precisely why I asked the Lieutenant Governor to 
chair this task force, so that we can get our best minds around 
the table to understand how do we improve outcomes in the 
health realm for people, but also taking the lessons from this 
and using them to drive the policy agenda that we're going to 
pursue as well.
    There's no question that COVID-19 has amplified preexisting 
social inequities that are tied to race, class, and access to 
our healthcare system, but we also know that communities of 
color, frankly, are frequently the ones that are unable to have 
the financial luxury to work from home, to stay on the front 
lines during our pandemic, don't have the kind of money to go 
and buy 3 weeks' worth of groceries, necessitating more and 
frequent trips. They don't have access to neighborhoods that 
might be in--you know, safe environmentally. And so these are 
all aspects to the lessons that we're seeing.
    Mr. Ruiz. What exactly will the State do to remedy some of 
these?
    Governor Whitmer. So we know that there's not an overnight 
solution, but we have gotten the process started, and it 
includes your colleague. Congresswoman Brenda Lawrence is a 
part of this effort, because it's important that all of these 
lessons are taken not just in this moment, but to drive an 
agenda that mends and heals this experience.
    Mr. Ruiz. Governor Polis, communities of color in Colorado 
have also experienced higher rates of COVID-19-related death 
than their White neighbors. In your testimony, you mentioned 
that Colorado's public health response is focused on protecting 
the most vulnerable communities in your State. How does 
Colorado plan to increase access to testing and care for these 
communities of color and other vulnerable populations, 
including by making sure it is affordable? And what do you 
believe the Federal Government could be doing a better job in 
helping your State and others address these disproportionate 
impacts and systemic inequities?
    And, also, Governor Polis, I just want to say we miss you 
on the congressional Democratic baseball team.
    Governor Polis. We miss you, too, Doctor. So, first of all, 
we have over 45 free community testing sites across our State. 
It's quick, it's easy, it's free. We've made clear in our 
English and Spanish communications that no one asks about 
citizenship or status. It's available for everybody. We have 
widely marketed materials in English and Spanish, and we have 
limited translation of materials into a number of other 
languages. I've talked to a group of Somalis and folks the 
other day, and we have some of the documents that are 
translated into Somali. But the clear message is it's free, 
it's easy, it's quick to get tested at any of the over 45 free 
community testing sites.
    In addition, we formed a task force on healthcare 
disparities and are really working closely with Latino and 
Black communities to really identify some of the systemic 
issues that led to the different impact of COVID-19 as well as, 
in this crisis, address how we can get better testing and care 
out to minority communities.
    Mr. Ruiz. Thank you.
    I think this is a very important moment to pause and 
reflect. In the future, when there are attempts to cut the 
offices of minority health, to defund programs that look at 
health disparities, or pipelines that help produce more 
minority providers and public health experts, you know, many 
people in the field have said that it has detrimental effects 
on the actual health of human beings, and it is now no more 
pronounced than in a pandemic, seeing the death rates due to 
these chronic disparities that we need to address as a Nation.
    Thank you very much.
    Ms. DeGette. Thank you.
    The Chair now recognizes Mr. Griffith for 5 minutes.
    Mr. Griffith. Thank you very much, Madam Chair.
    Earlier, I made a point of order relating to House 
Resolution 965 and regulations promulgated by the chairman of 
the House Rules Committee in accordance with that resolution. 
While I don't care for House Resolution 965, it is important 
that we strictly follow the letter of the resolution and the 
regulations promulgated thereunder.
    Today's hearing or proceeding is not the problem. These 
witnesses are honest. The problem is that the regulations the 
Rules chair promulgated are, at best, clumsy. If we have a 
witness in the future who intentionally misleads this 
subcommittee on a material fact, i.e., perjures themselves, as 
an attorney, I am confident any attorney worth their salt would 
successfully defend and have their bad actor found not guilty 
of misleading us or perjuring himself.
    I implore the majority reread the sections I mentioned and 
rewrite the regulations. Don't read the resolution and the 
regulations for what you meant them to say. Read them for what 
they actually say.
    Thank you, and I'm now going to go to questions.
    Governor Hutchinson, in a paper released by committee 
Republicans on testing and surveillance, we recommended that a 
top priority should be testing nursing home and assisted living 
residents and staff, whether symptomatic or not. Nursing homes 
and other congregate living centers account for more than 40 
percent of the COVID-19 deaths nationally, even though 
residents at these facilities represent a fraction of a 
percentage of the population.
    It is my understanding that you have made a pledge to test 
all nursing home residents and workers starting this month. Can 
you explain this initiative and how it fits into your overall 
testing strategy?
    Governor Hutchinson. Well, thank you. And I appreciate the 
committee report that emphasized the importance of this. And 
the reason we're doing it in Arkansas is that, of course, this 
is the most vulnerable population. We want to be able to keep 
them safe, and with the staff going in and out of facilities as 
necessary, we want them tested whether they're symptomatic or 
asymptomatic. So that's a critical part of it.
    It also will identify, you know, any residents that are 
positive, and we can isolate them or take the protective 
measures. I think it will be a great boon, and what we 
ultimately want to get to is that we can once again have people 
tested to go in and visit a family member. We've got to be able 
to stop having total isolation of someone in a nursing home and 
to let them come back, to be around their loved ones again, and 
hopefully, through this testing process, we'll eventually be 
able to get there.
    Mr. Griffith. Well, and I appreciate that. I know somebody 
whose loved one was in a nursing home, had some dementia, would 
not--without their family there to encourage them, would not do 
their therapy, and then subsequently, within a week or so, died 
after they contacted me about the problem about getting in to 
encourage them to do their therapy. So I know that that's 
important.
    Has the State established protocols for if a resident or 
employee tests positive in order to prevent an outbreak, and, 
if so, what protocols do you have at this point?
    Governor Hutchinson. Well, of course, if an employee tests 
positive, then they are isolated. They're quarantined. And, you 
know, there's been a question as to whether a--somebody--a 
staff person who tests positive should be able even to treat 
and work with positive patients. And, early on, with 
desperation, I think that was done in some isolated cases, but 
we've got sufficient resources now that that should not be 
done. That's not the ideal.
    So they're simply isolated, and given, of course, the 
health benefits. And they should be paid during that time. 
Every worker who tests positive should not have an obstacle and 
say, ``I'm not going to get tested because I might lose 14 days 
of wages.'' And that's something that we need to continue to 
do.
    Mr. Griffith. Well, that's a really good point, and I 
appreciate that.
    As a note on some prior testimony, I would point out that 
the Defense Procurement Act was, in fact, used to give funds to 
Puritan Medical Products in Maine, and they are increasing 
their swab production by 20 million, so they're doubling it 
from 20 to 40 million. I think that's important.
    Would you agree with that, Governor?
    Governor Hutchinson. Absolutely. I mean, the Defense 
Production Act has been utilized for the supply chain, and 
that's been appropriate, and it's been quietly influenced by 
the Federal Government as well as to where the hotspots are, 
where the priorities are. And I would say that the use of 
Defense Production Act in terms of the supply chain for food, 
for poultry, for meat, that is essential. We cannot go to our 
grocery stores in this environment, in this America, and not 
have sufficient food for people who need that nourishment. And 
so the supply chain, I'm glad that the President invoked it for 
that purpose.
    Mr. Griffith. And I agree and yield back.
    Ms. DeGette. I thank the gentleman.
    The Chair now recognizes Ms. Kuster for 5 minutes.
    You're going to need to unmute. There you go.
    Ms. Kuster. Excuse me. We'll get the hang of it. I'm trying 
to do two things at once with my testimony. My apology.
    Thank you so much for being with us. I want to thank you. 
This is not a partisan issue. We have a Federal delegation 
here, Democratic delegation in New Hampshire, and a Republican 
Governor, and we have struggled with all of the issues that 
you've talked about with PPE and with testing and with 
supplies.
    I want to move to the next step, which is moving forward 
about an even more dangerous second wave of COVID-19, along 
with the flu, next fall or winter. CDC Director Dr. Redfield 
has cautioned that a second wave of COVID-19 could be even more 
dangerous.
    Given the burdens that COVID-19 placed on the Nation's 
public health and healthcare system, it's my belief that we 
have a very brief window to learn from our past missteps that 
you all have outlined regarding supplies and testing and PPE 
and prepare for this second wave. And I wanted to say, not just 
with regard to additional testing and care demands on our 
providers, but also the vaccinations that we are going to need 
across our country.
    Governor Whitmer, I'd like to ask you, in light of the 
COVID-19 testing challenges your State has faced, what 
solutions can be applied in preparation for a potential second 
wave of the virus to ensure that your progress is not undone?
    Governor Whitmer. Congresswoman, thank you for the 
question. I think that it's an important one. I know that, 
while we've been through a tremendously difficult couple of 
months, a second wave would be even more devastating, and 
that's precisely why it's so important we get this right as we 
think about reengagement.
    It's also why I'm working with some of the best experts and 
epidemiologists in the country to inform every step of the way, 
also working with a bipartisan group of midwestern Governors to 
share information about how we're phasing in our economies. 
We've got to avoid a second wave at all costs, and ensuring 
that there is robust access and utilization of a flu vaccine 
and that people aren't putting off other vaccines that they are 
due for is all a critical component to us being as strong as we 
can going into the fall.
    And it's also why things can't just flip a switch and 
return to normal. We have to turn a dial and incrementally 
reengage, knowing that, until we have a vaccine that is widely 
available, we've go to wear masks and socially distance and be 
really smart. But I think all of these pieces are why it's so 
critical we make a data-driven, fact-based approach and listen 
to the science, and build up our stores of testing and our 
ability to trace and isolate.
    Ms. Kuster. Well, I appreciate that, and particularly your 
comments about a lack of a national strategy for testing. We 
definitely need a national strategy for vaccination, and we had 
some troubling testimony from Dr. Rick Bright in our committee 
about the lack of national strategy and planning and 
preparedness.
    I want to ask you, Governor Polis, as the public health 
workforce and healthcare providers focus on vaccination going 
forward, I want to understand if you have lessons learned in 
your State. And, particularly, I'm concerned about the 
equitable distribution of vaccines once it's approved, and 
particularly in lower-income communities, rural communities, 
and, most especially, given the events of this week, in 
communities of color, who we know have been disproportionately 
impacted by COVID-19 with a much higher rate of death. And how 
can we be certain that the vaccine, when it becomes available, 
will be available in an equitable way in communities of color 
and also rural communities in your State and across the 
country?
    Governor Polis. First, for the vaccines we have, namely the 
flu vaccine, we're doing a major effort, heading into late 
summer and fall, to increase our flu vaccine rates, because the 
last thing we want is a resurgence in COVID patients coupled 
with a worse than average flu season that would only contribute 
to overwhelming our hospitals.
    What's also important here is that we look at prioritizing 
those who are most at risk from COVID-19 for vaccination when 
we have the vaccine. The CDC has current guidelines for who is 
at risk. It's 65 and up, and it's a number of other criteria 
that they use. In our State, we added one, pregnant women, 
because we don't yet know enough and out of precaution we 
wanted to add pregnant women to the CDC list.
    As that list is finalized, optimized, improved, that should 
be the list for who gets vaccinated first, those who have a 
much higher hospitalization rate and morbidity rate from COVID-
19, regardless of their economic circumstances. The virus does 
not discriminate. It's based on the attributes, the age, and 
the other preexisting conditions that people have.
    Ms. Kuster. Thank you.
    Ms. DeGette. I thank the gentlelady.
    The Chair now recognizes Congresswoman Brooks for 5 
minutes.
    Mrs. Brooks. Thank you all so very much for being here and 
for your leadership.
    I want to build on a little bit talking about a second wave 
and the confluence of potentially of opening schools. Schools 
obviously had to close this year due to the virus, and while so 
many students transitioned to online learning, we know that the 
importance of reopening schools and getting kids back into 
schools has to do with, you know, making sure they're 
adequately fed, making sure that teachers can report child 
abuse situations, having the opportunity to interact with their 
classmates.
    Can you talk about--I'll start with you, Governor 
Hutchinson. Can you talk about your plans to reopen schools, 
especially with the concern about a potential second wave? And 
I'd like to hear about each of your--you know, each of your 
plans for the reopening, the use of testing, and what your 
State's game plan is. Governor Hutchinson?
    Governor Hutchinson. Well, thank you, Congresswoman, and a 
perfect question, because, as you point out, for many the 
school environment is the safest environment for a child, and 
we're really missing something when we don't have the in-
classroom instruction. And so we're very committed to opening 
school next fall for those reasons, as well as that's the best 
educational tool.
    And we recognize, though, that there is--might have a 
second wave. There might be positive tests, and so we're making 
plans for a blended learning environment so that, if we have to 
close for 2 days for cleaning the school or for other reasons, 
we could go--shift very quickly to online instruction for a 
couple of days, and then come back to the in-classroom 
instruction. We're preparing that right now, but we're very 
committed to having school next year.
    And then, in terms of the testing site--and, by the way, I 
am--the teachers, you know, some of those are going to be 
vulnerable populations, and they're going to be a little bit 
worried about this. We've still got to sort through to make 
sure the teachers have the support that they need in that 
environment. But we're going to have school. Testing is a big 
part of that, and quick response to testing, tracing that, and 
we're going to have it, though, because it's so critical.
    Mrs. Brooks. Thank you so much.
    Governor Polis, anything different that you and your State 
are doing? As you know, my son has taught in Colorado.
    Governor Polis. Yes, and we appreciate his work here.
    You know, I expect that schools will largely be back in the 
fall. And I use the word ``largely'' because it's certainly 
possible there will be particular communities, particular 
neighborhoods where there are outbreaks, and there might be 
temporary measures, or some students might need to start 
online.
    And, as the Governor in Arkansas indicated, it's also 
important to know that there will be interruptions for some 
kids during the school year; namely, when there is a site-based 
outbreak, kids will likely need to move to an online format for 
a period of likely 2 weeks, so that there's time for the 
incubation period, for people to get tested, and for people to 
return.
    So our teachers, our principals, our superintendents are 
doing an amazing job under extraordinary circumstances. We--
they truly would not have been able to have done that work 
without the CARES Act. I thank you and your colleagues for the 
support. I encourage an additional round of support for our 
schools during this very difficult period where they're 
effectively being asked to, out of necessity, create a hybrid 
way of doing things in tandem, knowing that, by and large, we 
hope the kids are there and that they're back, but there could 
absolutely be periods of time where they have to go online 
temporarily.
    Mrs. Brooks. Thank you.
    Governor Whitmer, my son actually did a student teaching in 
Hamtramck area.
    Governor Whitmer. All right.
    Mrs. Brooks. So just anything different that Michigan is 
planning on doing relative to reopening and to prevent this 
second wave of COVID in the fall, anything different?
    Governor Whitmer. Well, so similar. I would just say this, 
that, you know, the decision to take kids out of school I know 
weighed as heavily on both of my colleagues here on this call 
as it did on Governors across the country. And I am the reason 
my daughter didn't have a graduation ceremony, and that's 
tough. I'm hearing it in my own household. But the fact of the 
matter is that science and the best information we had said 
that that was the right thing to do.
    We're now in a spot where we are impaneling a group to come 
together and promulgate practices for reengagement this fall. 
That is our hope and our plan. It might look differently than 
it did before. We might have to drop class sizes or have 
different additional protocols to keep people safe. But, like 
my colleagues both just said, that is our goal, is to resume 
some form of in-person instruction in the fall with greatly 
increased testing.
    Mrs. Brooks. Congratulations to your daughter.
    Governor Whitmer. Thank you.
    Mrs. Brooks. I yield back.
    Ms. DeGette. Thank you,
    Next, I'll recognize Congresswoman Castor for 5 minutes. 
Congresswoman.
    Ms. Castor. Yes. Thanks, Chair DeGette, and thanks to the 
Governors for joining us today.
    I want to ask a few questions about transparency in the 
testing plans, and in the data reporting. I think we all 
understand the key to safely reopening schools and our 
businesses is going to be that widespread rapid testing, with a 
diligent focus on our vulnerable neighbors, like in skilled 
nursing centers.
    After the administration kind of failed to play that 
coordinating role early on with testing, testing supplies, the 
Congress passed bipartisan direction spearheaded by a lot of 
folks on this committee to direct HHS and the administration to 
do a better job in developing a national testing strategy, in 
partnership with States and local communities.
    In the new law, it requires States to report a testing plan 
back to HHS. It provides resources to States to help with that. 
I'd like to know, did each of you submit your testing plan 
details to HHS, and did you publicly release that to folks in 
your State?
    Governor Hutchinson. I can start. The answer is yes, we 
have coordinated our testing plan. We have submitted our 
testing plan. I'll have to check as to whether that's been 
posted on the website, but we certainly are transparent about 
that. We announce our goals continually as to what we want to 
do testing-wise, and that will be part of it.
    Ms. Castor. Governor Polis?
    Governor Polis. Yes, we did submit that last Friday, and 
we've offered to make our plan public. I don't know whether 
it's been made public yet or not, but we've said that we will 
do that.
    Ms. Castor. And Governor Whitmer?
    Governor Whitmer. The same for Michigan, yes. We did a 
plan.
    Ms. Castor. Did you release it to the public?
    Governor Whitmer. I'm not sure if it is on the website. I'm 
going to double-check right now.
    Ms. Castor. OK, because there's some consternation because 
the HHS, as I understand it, does not intend to release those 
details publicly, so we're going to have to count on the States 
to be transparent. I trust that you are doing that.
    But we've had some other problems in reporting of public 
health data across the country, and I'd like to get your advice 
on how we standardize that data. For example, here in the State 
of Florida, early on we had resistance at the State level on 
reporting infections in nursing homes. Then we had medical 
examiner data that was redacted by the State while we have 
strong public record laws here in Florida that they're not 
allowed to do that. So they finally--when we pointed that out, 
they changed their tune.
    And just last week, there was a story in Politico, they ran 
an article that highlighted the fact that bad State data hides 
the coronavirus threat as Trump pushes reopening. They quoted a 
public health expert from Columbia University that really sums 
it all up: ``All these stories about undercounts, overcounts, 
miscounts are undermining our ability to deal with this 
pandemic. The country,'' he says, ``is confronting an unheard-
of level of chaos in the data, the protocols, and the 
information.''
    Would you share with me how any challenges you've had in 
the reporting of data, and what do you need from Congress to 
boost the collection and reporting of data and working with us 
to make sure it's standardized from State to State so we have a 
true picture and are able to make informed decisions.
    Governor Whitmer. I'll jump in. I absolutely support that 
goal. I think that the frustration that the general public and 
the Governors have and the like, as well as Members of 
Congress, is making sure that we've got good, accurate, real-
time data. The data just simply around testing right now is 
very confusing, because some States include serology tests 
while others, like Michigan, are only doing the COVID-19 
diagnostic testing in our data. That's just one of a plethora 
of examples of how it's different across the Nation.
    An additional challenge is, of course, we've got local 
public health departments. So I've had to issue a number of 
executive orders requiring that hospitals and those local 
departments are, in real time, sharing data with the State. And 
it is a challenge. But I think direction and articulation from 
the Federal Government, along with additional support to ensure 
that we can get this done, would go a long ways toward really 
assessing where we are as a country and where we want to be.
    Governor Polis. I would just--I certainly agree with that. 
You can look at our extensive reporting at 
covid19.Colorado.gov. I think all the States--certainly, I 
speak for Colorado. I was very disappointed initially with the 
level of data that I had as Governor.
    We now have a lot more data, data on racial disparities, 
data on who died of COVID versus just who had COVID and also 
died as a comorbidity. We have data on who gets released from 
hospitals. These are all areas that we lacked initially that we 
have now. But we did it on our own, and I think the other 
Governors did it on their own, and I don't think there's the 
kind of standardization that we might like to compare apples to 
apples across the States on all the data.
    Governor Hutchinson. And I agree with that as well. 
Hospitalizations is a good example, that those are 
electronically reported in Arkansas, but I don't know that that 
is the same nationally.
    And then the other challenge is in the commercial labs. The 
commercial labs, of course, we get delayed data. It could be 2 
days, it could be however long it takes them to get the test 
results back. And then sometimes we only get if it's a positive 
test back and we don't get all the negative information. So 
that transfer of information to our public health system is too 
slow and not sufficient data.
    Ms. DeGette. I thank the gentlelady. The Chair now 
recognizes Mr. Duncan for 5 minutes.
    Mr. Duncan. Thank you, Madam Chair. And I would like to 
yield my time to Tim Walberg from Michigan.
    Ms. DeGette. The gentleman is recognized.
    Mr. Walberg. I thank the chairman. I thank Representative 
Duncan for yielding me some time.
    Let me go back to Governor Hutchinson, and it's good to see 
you here. I have in-laws that retired down Mountain Home, and I 
spend a lot of time on the White River trout fishing. I enjoy 
that State.
    Let me just ask this question: As a Governor--and I could 
ask it to the other two as well--why should the Federal 
Government be responsible for funding the actions of a State, 
which are specifically not delegated to the Federal Government?
    Governor Hutchinson. Well, thank you, Congressman, and come 
back and fish the White River anytime.
    In terms of the division of authority between the Federal 
Government and the States, you know, I think it's been a fair 
balance. I mean, we can all complain it got a little slow early 
on, but, my goodness, in 90 days, we ramped up the supply chain 
for one of the most massive investments in production on 
healthcare supplies that we've seen in history.
    And--but in terms of the funding side of it, I like the 
flexibility that's been given to the States. It's been Federal 
support with State flexibility, you know, Federal guidelines 
where the State can manage it. And I like that. I like the fact 
that we've had that flexibility.
    I think, if you look at all the trend lines in the States, 
you know, for the pandemic, every one of those is different. 
You don't see it mirrored. Even within a State, you see 
different trend lines in different regions. We have to be able 
to have that flexibility.
    Mr. Walberg. Thank you.
    Governor Polis, good to see you again.
    Governor Polis. Yes, thank you. I think the reality is, is 
that, when there's an emergency, we all rise to the occasion. 
And whether it's an emergency like Hurricane Katrina, whether 
it's fires in California, Colorado sent many crews, we rally 
together.
    I think the unique nature of this emergency is we're in a 
state of emergency the first time in our history, is my 
understanding, in all 50 States in the Nation and the 
territories. So there's an unprecedented need for collaboration 
between the Federal Government and our State governments, but 
in a sense it's no different than how we've always come 
together as a Nation around national crises and emergencies.
    Mr. Walberg. Governor Whitmer? Turn your mic.
    Governor Whitmer. Thank you, Congressman.
    I would concur with what my colleagues said. I would just 
recognize that incredible challenges that States are 
confronting right now are real, and it's universal. We in 
Michigan have about a $3 billion hole in the current year 
budget. It's bigger in next year's budget.
    And as we look to where the bulk of State budgets are, we 
know that it's in public health, public safety, and public 
education, all of which are incredibly important in a global 
pandemic. And so I think that's why it's--I think that's why 
it's so important that we work together.
    Mr. Walberg. Is somebody else on?
    Ms. DeGette. Everybody needs to mute except the people 
talking.
    Mr. Walberg. I can get 3 seconds back there.
    Governor Whitmer, how much of the Federal stimulus money 
Michigan has received so far has your administration spent?
    Governor Whitmer. A great question, Congressman. I know 
I've got the answer right here. So at this juncture, I first 
want to reiterate how grateful we are for the support that we 
have gotten. With some of the Federal funding that's coming to 
Michigan, we've spent, you know, a total of--if you just look 
at provider relief funds, $900 million for hospitals; $326 
million for rural healthcare providers; $1.2 billion for 
disaster loans; total loans approved are 16,000 of them.
    Mr. Walberg. Those are moneys you've spent or received?
    Governor Whitmer. These are moneys that have been made 
available to Michigan businesses, hospitals, and via 
congressional relief legislation.
    Mr. Walberg. I guess the question I have, of the $3.2 
billion that I've seen that Michigan has received, quite a bit 
of that hasn't been spent yet, and I'm wondering why they 
haven't.
    Governor Whitmer. Congressman, you know what, I'm happy to 
follow up with you and give you a full accounting for each of 
the expenditures that we've made on behalf of the people of 
Michigan, so you've got that.
    Mr. Walberg. Thank you. I look forward to that.
    Governor Whitmer. Happy to.
    Mr. Walberg. I yield back.
    Ms. DeGette. I thank the gentleman. The Chair now will 
recognize Congressman Tonko for 5 minutes. You need to unmute. 
We still don't hear you.
    Mr. Tonko. Can you hear me now?
    Ms. DeGette. Yes, thank you.
    Mr. Tonko. OK. Thank you, Chair and ranking member, for 
what is a very, very important topic, and thank you for all the 
information that people have exchanged.
    Since the onset of the COVID-19 outbreak, States have faced 
immense challenges in obtaining testing supplies and other 
critical medical equipment such as swabs, masks, gowns, and 
gloves.
    The Trump administration has left States to battle each 
other for scarce supplies on the private market rather than 
leading a centralized national effort. As a result, States have 
been forced to outbid each other for medical equipment while 
scrambling to find new suppliers. This has led to higher 
prices, costly delays, inefficient allocations, and widespread 
confusion.
    And so, Governor Polis, it's good to see you. And can you 
describe the challenges Colorado has faced in competing against 
other States for critical medical supplies?
    Governor Polis. Yes. We have to compete against global 
demand for personal protective equipment, also for testing. And 
I think it's to be expected that we compete against other 
nations. What the surprise element is here, is we're competing 
against other States, and sometimes even our own Federal 
Government.
    So I think, as a Nation, all 50 States and our territories 
really need to be able to coordinate, in a more effective way, 
local distribution, local autonomy, but coordination with 
regard to acquisition so that we're not costing one another 
more by bidding up prices in competition with one another.
    Mr. Tonko. Are there other things that the Federal 
Government could better support in regard to State efforts to 
procure medical supplies and ensure that, you know, some of 
these mistakes aren't repeated?
    Governor Polis. Yes. I think that we should have a lot of 
learning from this and really make sure that we have a way 
where there is a transparent way of distributing personal 
protective equipment to the States, and a collective way where 
we can know what we're getting, when we're going to get it, and 
coordinating the purchasing with the advantages of the scale at 
the Federal level and the advantages of us not bidding against 
one another to ultimately get a worse deal for taxpayers than 
we would get if we simply coordinated.
    Mr. Tonko. Thank you.
    Governor Whitmer, welcome. Your testimony also identifies 
hurdles your State has faced in obtaining medical supplies, and 
I'll quote from your testimony: ``The lack of centralized 
coordination at the Federal level created a counterproductive 
competition between States and the Federal Government to secure 
limited supplies, driving up prices, and exacerbating existing 
shortages.''
    So, Governor, is the lack of a centralized Federal 
coordination effort still limiting Michigan's ability to 
reliably secure medical supplies today?
    Governor Whitmer. Yes. And I'll just talk about one very 
simple piece of the test, which is a swab. Swabs are absolutely 
essential to conduct the test. Right now in Michigan, we have 
the capacity to do about 25,000 tests a day, but we've never 
come close to hitting that capacity because we need this item.
    The Federal Government has offered--and we're grateful for 
the commitment--to send us these materials, but oftentimes 
these shipments don't reflect what we expect or the diversity 
of types of swabs that we need. I talk about swabs so much, 
it's--I never thought that I would be focused on something, 
such a simple implement, and yet each of these different COVID 
tests can use different types of swabs. And so, when we expect 
180,000 swabs, diverse swabs, and we get 180,000 foam swabs, 
we're grateful for the foam swabs, but it means we can't do 
those tests that require the other types of swabs.
    I've talked to my counterparts, some of whom have literally 
gotten Q-tips, which are unusable in COVID-19 tests, and they 
were being counted as swabs. That's not been Michigan's 
experience, thankfully, and we're grateful for those swabs, but 
we need that kind of robust diversity in the implements so that 
we can live up to this opportunity to hit that 25,000 capacity.
    And so, until there's a centralized procurement and 
allocation with real-time information about what's coming so 
that we can do our planning, it's going to be hard for us to 
hit those numbers that we all know are necessary to 
understanding how vast COVID-19 is so we can prevent the 
spread.
    Mr. Tonko. Thank you so much, Governor. Look, it's obvious 
that States were essentially left to fend for themselves, 
fighting for limited medical supplies with little Federal help. 
And I believe the Trump administration must provide leadership 
to ensure every State is able to secure the medical supplies it 
desperately needs, which is why I have consistently urged this 
administration to make robust use of the Defense Production 
Act. And, as we move forward, the mistakes of these last 3 
months simply cannot be repeated.
    And, with that, Madam Chair, I yield back.
    Ms. DeGette. I thank the gentleman. The Chair now 
recognizes Congressman Sarbanes for 5 minutes.
    Mr. Sarbanes. Thanks very much, Madam Chair. Can you hear 
me?
    Ms. DeGette. Yes. Yes, we can. Thank you.
    Mr. Sarbanes. Great. Well, I want to thank the Governors on 
the call today. Thank you for the work that you're doing very 
much on the front line of this pandemic.
    My question is about antibody testing, because obviously, 
it has a certain allure to it, this notion that people can 
discover whether they got the infection, have overcome it, and 
are now in a more robust, potentially immune position.
    So it's a very appealing concept, but the Centers for 
Disease Control, and I think a lot of others in the public 
health arena, are being very cautious about the wide deployment 
of it and reliance on it.
    But it must be something that's getting discussion on your 
teams, as Governors, and you must be looking at it and trying 
to figure out is there an appropriate role. At what point will 
you feel that the antibody testing that's available has reached 
a level of reliance that you want to make it part of your 
strategy, if you've not done that already? As we head into the 
reopening, there's certainly a role to be played by antibody 
testing, if that can be done, again, responsibly.
    So I just would love to get your take, because I know 
there's some nervousness, and appropriately so, about it, and I 
also know, frankly, that it's getting deployed in a very uneven 
fashion, not just from official sources, but, you know, medical 
folks out there who have access to some of these tests and are 
providing them.
    So, if you could speak to that. Maybe we'll start with 
Governor Whitmer and go to Governor Polis and then Governor 
Hutchinson.
    Governor Whitmer. Sure, I appreciate the question. I think 
it's really important. Serology testing is going to be an 
incredible long-term asset. Right now, we've got a number of 
academic partners here in Michigan that are working to develop 
serology studies so that we can assess the prevalence of COVID-
19 in the State.
    Given the capabilities and the current limitations of 
testing at this point, our experts are telling us it's most 
appropriate toward identifying individuals who had a COVID-19 
infection at some point and giving them the test so that we can 
really study the efficacy of serology. But we believe that this 
is going to be a critical component of a long-term strategy, 
and we're hopeful that, as these tests improve in their 
efficacy, that we can deploy them widely.
    Mr. Sarbanes. Thank you.
    Governor Polis.
    Governor Polis. Yes. And to be clear, the priority now for 
testing is who is contagious now, who has active viral count 
now and might be contagious, and how do we isolate them. The 
serology has significant medium- and long-term benefits, but 
the biggest ones depend on the emerging scientific body of 
knowledge around what degree of protection antibodies provide, 
and how long they provide that protection for.
    There does seem to be general scientific consensus that 
there is additional protection that is conferred by antibodies, 
but the big unknown--and it makes a major difference in terms 
of the impact of who's had it and who hasn't--is it 70 percent 
protection? Is it 99 percent protection? Does it last 3 months? 
Does it last 6 months? These are the unknown factors that we 
expect science to answer in the coming weeks and months. But in 
the meantime, that limits the impact of knowing whether people 
have had it or not.
    The second factor that we've had problems you're probably 
aware of, is there are a number of low-quality, high-error-rate 
serological testing that are out there in the marketplace. I 
think that the marketplace is beginning to sort itself out. The 
higher-quality validated methods of antibody testing are now 
being used, but there's still some dicey results out there from 
unreliable tests.
    Mr. Sarbanes. Governor Hutchinson, I want to give you a 
chance to respond as well.
    Governor Hutchinson. Well, I agree with what the comments 
of my fellow Governors. We've taken the approach that this is 
critical probably for the fall. We want--we're already starting 
to invest in that through our University of Arkansas Medical 
Sciences to develop an antibody test, but we believe that the 
scientific body of knowledge will improve. We think the cost 
will go down.
    And so we want to wait for the right time to have the right 
technology and the best science before we really go full-blown 
with that. So it's a part of the future, but it's not the 
short-term future. Right now, we're concentrating on the COVID 
test.
    Mr. Sarbanes. Well, I appreciate that, and I think we're 
all right to be somewhat cautious about this. It does have 
great promise for our strategy in response to the pandemic. I 
think the emphasis rightly remains on the diagnostic test and 
making sure that that's as widely available and supported as 
possible, with all of the different means and supplies that 
need to go with that effort. So I appreciate the testimony 
you've all given with respect to the need for the diagnostics, 
and we'll continue to obviously emphasize that as well.
    And, with that, I yield back.
    Ms. DeGette. I thank the gentleman.
    The Chair now represents Congressman Peters for 5 minutes.
    Mr. Peters. Thank you, Madam Chair. And thanks to all the 
witnesses, the Governors, for being here.
    I wanted to start with Governor Hutchinson. Your testimony 
highlighted how your State has successfully used Federal funds 
from the CARES Act to provide $147 million to Arkansas 
businesses to invest in equipment and supplies needed to reopen 
safely.
    I want to ask you, because you've been in Congress before, 
so you've been both a Governor and in Congress. And from the 
other side of the aisle, I want to sort of ask you--you touched 
on this--but what do you think are the most effective ways for 
States to be collaborating with the Federal Government on State 
response, and what would you like to see more of from the 
Federal Government that you haven't seen?
    Governor Hutchinson. Well, thank you for the question. And 
I do think that, when it comes to rolling out the vaccine that 
we all hope and pray we get before the end of the year or as 
soon as possible, that we do have some good national guidelines 
that will help us, and they're going to have to help guide the 
distribution of those vaccines. And so that's an important part 
of it.
    I think, you know, in terms of the CARES Act, the 
flexibility they give to the States is good. I think they do 
need to give us a little more flexibility to help our cities 
and counties with the existing funding. That's sort of a gap 
that we have, and so I hope that that can be addressed.
    You know, a question was asked before about how we use our 
CARES Act funding. We actually do intentionally want to reserve 
part of that for the fall, because there's going to be 
emergencies that come up. We don't want to spend it all early. 
We do want to be able to save some of that for emergent needs 
that we'll see then.
    Mr. Peters. Thank you, Governor.
    I want to ask Governor Whitmer, thank you for your work and 
for your leadership. And just so you know, I'm originally from 
Southfield, so I'm a Michigander by, anyway, being raised as a 
Michigander.
    In your testimony, you've mentioned that you've encountered 
transparency issues when coordinating with the Federal 
Government on testing supplies, and on transparency, stated 
that supplies could be allocated more quickly if a more 
detailed breakdown was provided, and if supplies were shipped 
at a regular cadence. This is a little bit different than 
setting up States versus States. This is about knowing what's 
coming.
    Can you elaborate on how the lack of transparency 
surrounding supplies has affected your State's response 
efforts, and some specific areas where you'd like to see 
greater transparency from the Federal Government, Governor 
Whitmer?
    Governor Whitmer. Sure, Congressman, and you're making 
Southfield proud. I just wanted to highlight--I think--I gave 
the example of the swab shipment that we were expecting. We are 
grateful--and I always want to start with that--we are grateful 
for every ounce of support that we've gotten, and FEMA Region V 
has been really good to work with.
    The issue I think that has made it hard for us to hit our 
goals is that, when we are expecting shipments, they don't 
reflect what we are planning for. And so, we find when they get 
here that it's very different, and so we have to rearrange the 
plan, which takes time, and undermines our ability to do--you 
know, to execute our plan.
    And so, really, it is about making sure that the shipments 
are coming fast, that they're accurate in terms of what we're 
expecting, and that the cadence is, you know, predictable. We 
wanted to plan. For the month of May, we were promised a number 
of things, and 90 percent of it has come in. It hasn't come in 
at the right cadence, and what's come in has been a little 
different than what we expected. And so each of those makes it 
challenging for us to execute and to do all of these diagnostic 
testings that we so desperately need to do. So that's what I'm 
referring to when I made those comments in my opening remarks.
    Mr. Peters. I think a lot of us are frustrated that the 
stockpiling and domestic production hasn't been robust enough 
to deal with something like this, even though we heard years 
ago that we should expect this. But it seems very simple to be 
very clear about what's coming and what's not coming. That's a 
frustration for a lot of folks, that information doesn't cost 
anything. Organization doesn't cost anything. We should be 
doing a better job at the Federal level, and we certainly would 
ask that from the administration.
    And, Governor Polis, I'm running out of time, but I just 
want to say thanks for your leadership. I've noticed how you've 
struggled with the pressures of reopening, but you've stuck to 
science and allowed your State to be flexible, based on 
conditions across the State. We're seeing some of that in 
California as well. And we can talk more at length about the 
Federal Government's support of you in the future, but I wish 
you all a lot of luck, and thank you for being here today.
    I yield back.
    Ms. DeGette. I thank the gentleman.
    Governor Hutchinson, we know that you have to leave us, and 
we really appreciate your presence today and your wise words. 
Do you have any final words for us, what we can do to help your 
State, as a Congress, going forward?
    Governor Hutchinson. First of all, thank you for your 
courtesies today. Thank you for the bipartisan way in which 
you're looking at this important national issue.
    In terms of the future, I would just urge everyone to look 
at the future, and what we can do to get it right. There's 
going to be a time that we're going to have to rehash all of 
this and learn from it, but, you know, it's about being able to 
get ready for the fall and working together for it. So thank 
you very much for the opportunity today.
    Ms. DeGette. Thank you, Governor. We look forward to 
continuing to work with you, too.
    We are now pleased to be joined by several members of the 
full committee who are not members of the Oversight and 
Investigations Subcommittee, and I'm happy to go to them. 
First, we are going to recognize Congressman Bilirakis, who has 
been waiting very patiently, for 5 minutes. Congressman.
    Mr. Bilirakis. Thank you. Thank you very much, Madam Chair. 
I appreciate it, and I thank the ranking member and the 
Governors. It's really incredible that they've taken all this 
time since 11 o'clock to be here.
    I have a question, and then I have some prepared questions 
for the two Governors. With regard to the unemployment 
benefits, across the State we have a set amount, every State 
has a different set amount, and then we get the additional $600 
from the Federal Government under the CARES program, as you 
know.
    But if--I know we're having some trouble with our small 
businesses actually getting the employees, the former employees 
back who are on unemployment, and I know that there's--the 
State actually controls this. There's a mechanism of law on the 
books, so that the employer would request that the employee 
come back to work. And if they don't come back to work, I 
understand that they're not eligible for the employment 
benefits.
    Is that--and we can start with Governor Whitmer. Is that 
being enforced in your particular State of Michigan?
    Governor Whitmer. So, yes. So one of the things that we 
have done is to ensure that we've made use of all of the CARES 
Act dollars, the extra $600. We've been able to meet the needs 
of over 1.6 million workers in Michigan. Our historic 
unemployment is real.
    But I think one of the great things that we have available 
to us is the Work Share program, and it's one of the best 
programs that has been embraced in Michigan. We've been working 
with small business, so that they can avail themselves of this. 
It's an opportunity to provide unemployment benefits to help 
make up for lost wages in the event that workers aren't back at 
full capacity, and so to meet that gap in pay. And it's been 
something that's really been a win-win for workers and for 
business, and for the State, because we get fewer people on 
full unemployment.
    And so, right now, we've got over 700 businesses taking 
advantage of this, 50,000 employees who are benefiting. The 
businesses can retain their skilled workforce and kind of at a 
lesser level, but pay them as well as they were before. And, 
so, this is something that's really been a good tool. I know 
that there are more than 20 States that haven't done something 
like this, and that's a way that we can help get people back 
into the workforce as businesses are coming back online.
    Mr. Bilirakis. Governor Polis?
    Governor Polis. Yes, I would just add that, for people that 
are at risk, if they are 65 and up and in the workforce, or if 
they have a preexisting condition, they should not necessarily 
yet return in many places to a job where they have interactions 
with the general public.
    And so, we want to make provisions where they are able to, 
if UI is appropriate, or if they can be reassigned to a 
position that doesn't interface with the public or they can 
telecommute. For those who have added risk, it's important that 
we make every possible accommodation.
    Mr. Bilirakis. OK. And I really appreciate the bill that 
was passed in the House in a bipartisan fashion to give the 
businesses the flexibility from 8 weeks to 24 weeks. But I 
think this is a problem, and, you know, we want to make sure 
that we protect the future employees as well, because, you 
know, the current law says that after July 31st the 
unemployment runs out.
    So I just want to make sure that our States are enforcing 
the laws on the books to make sure if they're able employees, 
and they can work, that they have to get back to work instead 
of, you know, collecting the unemployment benefits.
    I have another question here for the Governors. The 
Paycheck Protection Program and Healthcare Enhancement Act 
included $11 billion for States and local governments for 
purposes related to the COVID-19 testing, including support for 
use by employers or in other settings.
    Are you planning to use any of the funds that your State 
receives, under this provision, to help employers with expenses 
related to the COVID-19 testing? So we'll start off with 
Governor Polis, since I can see you here.
    Governor Polis. Well, so, a lot of that is going to the 
critical COVID response, as was the intent of Congress. A lot 
of those costs are being borne by county health departments, by 
municipalities. Congress directly allocated money to the very 
largest of the municipalities, I think we only have one in our 
State and a few counties that are very large, and yet many of 
the smaller counties also had those expenses. Additional 
eligible expenses were also incurred by our schools, by our 
community colleges, and we're prioritizing those that have been 
in kind of the front line of the expenses with regard to the 
COVID-19 response.
    Mr. Bilirakis. Governor Whitmer, please?
    Governor Whitmer. I think that I would echo what Governor 
Polis just said. Thank you.
    Ms. DeGette. Thank you. The gentleman's time has expired. 
The Chair now recognizes Congresswoman Dingell for 5 minutes. 
Unmute, Deb.
    Mrs. Dingell. I want to thank all of you for being here 
today. And I know the hour is getting late, and you've got 
better things to do, but it's really important because this is 
the first time the House has really heard from the Governors. 
So I want to ask you a broader question, because we all need to 
know this.
    I know from my Governor--I love you, Jared, but I talk to 
my Governor a lot, because that's what I'm there to do--are in 
desperate need for more relief. I know she's working with our--
I want to hear from both of you, but she's working with our 
State legislature on critical budget needs now.
    Can you talk about the urgent need for more funding for the 
States, the counties, and the cities to make up for lost 
revenue? And what would happen if Congress doesn't provide you 
with more direct relief to the States, to the counties, and the 
cities? And I guess, Jared, forgive me, I'm going to go to my 
Governor first. But you're handsome. He is.
    Governor Whitmer. We can agree on that. That is unanimous. 
OK.
    So I do appreciate the question. I think that it's really 
important. You know, COVID-19 has wreaked havoc on our State 
budgets, and we have about a $6.2 billion total loss in the 
current fiscal year and next. It's a crisis unlike anything 
we've seen before, and it is all associated with the public 
health crisis.
    Every Governor, regardless of affiliation, we're working 
with the NGA to make sure that you in Congress understand the 
plight that we are all confronting. The numbers show that we 
need flexibility. We need additional support from the Feds if 
we're going to continue saving lives and reengage our economy 
and provide critical services to the people of our States.
    We can't do this alone. We need Federal Government 
partnership here. And I think the bottom line is, we really 
need additional flexibility and additional resources. We, none 
of us would want the people that stayed on the front line and 
put themselves in harm's way to take care of everyone else to 
bear the brunt of these budget shortfalls. And when the biggest 
parts of our budgets are consumed by public health, public 
safety, and public education, those are those front-line heroes 
that we want to support, not undermine. And, obviously, the 
health of our economies depends on us being able to balance 
these budgets so we can continue to make the right decisions 
for the right reasons in our States all across the country.
    Mrs. Dingell. Thank you, Governor.
    Governor Polis.
    Governor Polis. Yes. We were certainly grateful for the 
help in the CARES Act. I honestly don't know where we would be 
to address these enormous response costs that our local 
agencies have had without the CARES Act money.
    We also would be extremely appreciative of the help that's 
in the HEROES Act, in some form, reaching the President's desk, 
because I can tell you it's very challenging for States. Unlike 
the Federal Government, we have a balanced budget requirement. 
States are not able to borrow. We would have enormous cutbacks 
at a time when many Colorado families could afford it the 
least, in necessary social services, our social safety net. 
Medicaid expansion would be in jeopardy if not for FMAP and 
increased assistance. So it's really a critical time for the 
Federal Government to step up, protect the most vulnerable, and 
protect our future by supporting our schools.
    Mrs. Dingell. So thank you for that answer. I have one--and 
we don't have that much time, but I'm very worried about a 
return, seeing spikes again. I'm out and people aren't wearing 
masks. They're not keeping physical distance. They're not 
listening to what you all are saying and the doctors are 
saying. I'm very worried about the lack of PPE equipment. We've 
got a several weeks supply right now, but if we have another 
spike, I'm worried what will happen in the country again, and I 
could go through another list.
    What do you both think Congress needs to be doing right now 
to help prepare for the fall? I'll go to you first, Governor 
Polis, since I did it the other way last time.
    Governor Polis. Yes, I'll start. You know, and we're not 
even through the first wave. There's areas of the country, and 
certainly in Colorado, areas of our State that have an 
increase, have outbreaks that, for a couple of weeks, have been 
going on. Most of our State has been going down, but there, you 
know, are several areas across our State that have been going 
up, and across the country.
    So the first wave isn't over. It's still--while the overall 
trends are getting better, it's still on the uptick in a number 
of places. Mask wearing is absolutely critical, and modeling 
mask wearing at all levels of civil society, including people 
that have a soapbox like yourselves as you serve in Congress. I 
certainly model mask-wearing also, because, by the way, I want 
to protect myself and my family, but I also want to model it 
for the general public.
    And, of course, building social distancing into how we do 
work. I applaud the United States Congress for doing that and 
not putting yourselves and your staffs at risk by having to do 
things the old-fashioned way, the normal way, and bring 
everybody together in a room. We're able to have this 
conversation in just as effective a way while being safe. Our 
State legislature has taken similar efforts as well.
    Governor Whitmer. I'll just say ditto. I know we're out of 
time, but I think Jared--Governor Polis articulated very well 
what it is, that we need to not let our guard down. We have to 
learn to live with COVID-19 and change our culture around how 
we personally conduct ourselves. And it starts with mask 
wearing and it continues with social distancing. And the 
consistent, medically accurate information needs to come from 
everyone with a platform.
    Mrs. Dingell. Thank you.
    Ms. DeGette. Thank you, Congresswoman Dingell.
    Congressman Walberg, 5 minutes more.
    Mr. Walberg. Well, thank you. And it's good to be the 
Michigan token on this side of the aisle, and it's good to be 
here with our Governor, with Debbie Dingell and myself as well. 
I wish we could all fly back on the same plane I'm flying back 
on. And I say that also, I have my mask here. But I think--I 
truly think we could be here in Congress working in Washington 
on a lot of issues. So this will be second best, and we're 
using it as best possible, so I'm glad that I had time yielded.
    Just point out as with some other statements that were made 
prior to this round of questioning from me, I notice here the 
facts that there are 32 States withholding funds from city and 
local governments. And, Governor Whitmer, I see that Michigan 
is one of those States. And I know that you've mentioned the 
$6.2 billion shortfall that's coming.
    I would hope that you wouldn't expect that other States who 
have opened up their economies, including those just south of 
us, let alone States like Georgia and Florida--and I could go 
through the list, including Asa Hutchinson's, who never shut it 
down--should be expected to help pick up our shortfall. I would 
hope that that wouldn't be the case.
    But in the meantime, with the funds that have been given to 
the States from the Federal Government in the CARES Act, et 
cetera, I would hope that those funds would be used for the 
purposes intended, and the flexibility that you do have. And 
it's not ultimate. I don't think it should be an ultimate 
flexibility with Federal dollars coming, but I wonder why 
Michigan is one of those States--and I'll give you a chance to 
answer that--that is withholding funds from our local 
communities.
    Governor Whitmer. Thank you, Congressman. And you know 
what, we've spent quite a bit of time on this call together. We 
should you do that in person when you come home to Michigan.
    Mr. Walberg. I wish we could fly back together.
    Governor Whitmer. OK, wow. I'm always here. I don't leave 
Michigan very often.
    You know, one of the things that, if you wanted to be 
helpful and lobby our Republican legislature and work with me, 
I'm sure we can move a lot of those dollars quicker. That's one 
of the things that is happening. I had a conversation with our 
quadrant this morning, and we are determined to make sure that 
we utilize the dollars that Congress has sent to Michigan in a 
smart way that really gets to people and improves, you know, 
our plate here in Michigan.
    With regard to, you know, our unique reaction to COVID-19, 
our unique experience with COVID-19, as you recall, just a 
couple of months ago, our numbers were exponentially 
increasing, like New York's were, and Louisiana. We were on a 
trajectory that put Michigan with the third-highest number of 
cases and deaths in the Nation. It is something, as Americans, 
everyone who's confronted COVID-19 should be able to expect our 
government to step up and to help us. It shouldn't be 
disproportionate, based on which State you're in, which party 
your Governor is in. Every one of us should have that 
expectation. And I know that our congressional delegation is 
working incredibly hard to ensure that everyone in our State 
gets the kind of support that we need, and for that I am really 
grateful.
    Mr. Walberg. Respectfully, Governor, our Federal Government 
did step up and help Michigan as well with significant dollars. 
And I could go through the listing of all that came your way as 
an administration, to the legislature, and to the citizens as 
well, but they have to be spent well.
    And I think, as you've talked very clearly--and, again, 
this is our first effort through this type of pandemic. I get 
that, and I want to be respectful of that. But other States 
have done it in such a way they didn't have that type of spike. 
Other States did not put COVID patients back in nursing homes 
until just recently. And I appreciate the fact that just 
yesterday, you opened our State up more, including the lower 
part of Michigan's peninsulas.
    But we have settings here where it's been a great amount of 
disparity. While we have big box, grocery, convenience, 
lottery, marijuana, adult novelty stores open, appointment now 
for auto dealers, retail, restaurants and bars, yet barbers, 
hair salons, movie theaters, gyms, exercise, unless it's done 
outside, are still not open. And that's the economy. That grows 
our economy. We can't deal with that $6.2 billion shortfall if 
we don't grow our own economy in Michigan.
    So, Governor, I want to be a help, certainly, but I think 
we have to do what the data says from other States as well. 
They're doing it more effectively. I see my time has ended, so 
I guess I'll have to yield back.
    Governor Whitmer. Chair DeGette, am I permitted to respond 
to that?
    Ms. DeGette. I'll allow a brief answer.
    Mr. Walberg. I certainly would allow.
    Governor Whitmer. I would just say that, Congressman, you 
know that Michigan has had a uniquely hard time with COVID-19, 
and we have needed help from the Federal Government. And when 
we were living on literally one shift's worth of masks, we were 
in desperate times, and that's why we had to take aggressive 
actions
    Mr. Walberg. Other States were on just one shift's as well.
    Governor Whitmer. They have worked and we have pushed our 
curve down, we have saved thousands of lives, and now we are in 
phase 4 of a six-phase reengagement. We have made incredible 
progress, and it's because people of our State have taken this 
seriously and done their part.
    Ms. DeGette. Thank you, Governor.
    The Chair now recognizes Representative Gianforte for 5 
minutes. Representative.
    Mr. Gianforte. Thank you, Chairwoman DeGette and Ranking 
Member Guthrie, for allowing me to waive on. And thank you to 
the Governors. This discussion has been very instructive and 
helpful as we look at this. I think one of the important 
lessons we've learned in responding to COVID-19 is that one 
size doesn't fit all in policy, and it's just not the way to 
go.
    New York City faces different challenges than Little Rock, 
Arkansas, or Denver or Detroit, and are very different than 
Deer Lodge, Montana. Even inside my own State of Montana, 
cities like Bozeman and Billings saw multiple infected people, 
and yet many counties have seen no cases at all. So flexibility 
is very important.
    I think another lesson learned is that we now know more 
about this virus and are learning more every day. We should use 
that acquired knowledge to adapt our public policy responses 
now, and if there is a resurgence. The virus seems to be most 
deadly to the elderly and those with existing health 
conditions.
    Also, it seems especially deadly in group care facilities 
and nursing homes. In many areas, early lockdowns due to the 
flu season, and strict processes for COVID, kept these 
facilities mostly safe. Other States have made different 
choices and had different outcomes. In the future, we'll need 
to concentrate our efforts on ensuring we protect the most 
vulnerable from COVID-19, like the elderly and those with 
underlying health conditions.
    I recently had a Zoom meeting with a senior living center 
in Ekalaka, Montana. They hadn't been able to see visitors for 
months, but fortunately, the worst thing going on in Ekalaka 
was some cheating at the pinochle table.
    This has been a very difficult time. However, I'm confident 
that, with our expanding knowledge about the virus and 
increased preparedness, we can both safely restart our economy 
and protect the most vulnerable among us.
    This has been a great discussion today. I've had my 
questions about testing already answered, so I will yield the 
remainder of my time to Representative Walberg.
    Mr. Walberg. Thank you, Greg, for doing that.
    I think I've asked enough questions right now. I appreciate 
the opportunity, and the Governor and I will have an 
opportunity to talk back in Michigan. I yield back.
    Ms. DeGette. The gentleman yields back.
    The Chair recognizes Representative Carter for 5 minutes. 
Representative Carter, you're our closer, so make it a good 
one.
    Mr. Carter. Can you hear me OK?
    Ms. DeGette. Yes.
    Mr. Carter. Well, thank you very much, Madam Chair, for 
allowing me to waive in on this. And thank you both of you, 
Governor Whitmer and Governor Polis, for your participation 
here.
    You know, as we roll out our economy, I think one of the--
two of the most important things that we are going to have to 
have: First of all, we've going to have to combine technology 
that is robust testing along with personal responsibility. And 
that is following the guidelines that have been set forth by 
the Coronavirus Task Force: washing your hands, practicing 
social distancing, et cetera.
    One of the things I want to remind you of is that 
pharmacists are the most accessible healthcare professionals in 
America. Ninety percent of all Americans live within 5 miles of 
a pharmacy. Many members of the Coronavirus Task Force have 
identified pharmacists as being critical in making sure that we 
get mass testing, and that's going to be very important. 
Admiral Giroir and Secretary Azar, CMS Administrator Verma have 
all identified pharmacists as being key components of this.
    And I just wanted to ask you if you have experienced that 
in your State, Governor Whitmer. I've been to Michigan, and I 
know you have a very strong pharmacy association there. I've 
been very impressed with them and wanted to know if you've 
experienced any of this, if you've utilized this, and what your 
thoughts are?
    Governor Whitmer. Thank you. I appreciate the spirit of the 
question, and I agree with it. I think that one of the things 
that we've been able to do as we try to ramp up testing is to 
expand who can, you know, write a prescription for a test, or 
an order for a test. And we've included pharmacists, 
acknowledging that they are accessible and that people are very 
comfortable with their pharmacists.
    This is one important piece, I think, of utilizing all of 
the different strengths of a healthcare system that has been 
incredibly stressed, but recognizing where there are 
opportunities. And we work very closely with our pharmacists. I 
think that this is one place where this crisis has created a 
relationship that--and an ability to confront the issue, and 
maybe there is more that we can do in that space.
    Mr. Carter. Governor Polis?
    Governor Polis. Yes. We're--look, pharmacies can be 
convenient, low-cost. They're accessible. We're totally 
supportive of it. We are currently in partnerships, Kroger's, 
Safeway, and Walgreen's in Colorado are doing testing. We hope 
more. Anybody who wants to do that, we think that's a very 
convenient, low-cost access point for people, so it's a great 
way to increase that collaboration with low-cost pharmacists.
    Mr. Carter. Have you experienced any Federal barriers in 
the way of reimbursement or anything that you're aware of as 
far as it's related to pharmacists?
    Governor Polis. I'll ask our healthcare finance people, 
Congressman, and if we have some we'll get that to you.
    Governor Whitmer. Not to our knowledge in Michigan. We've 
got great partnerships, just like in Colorado, with our 
producing and conducting tests at pharmacies across Michigan, 
and so it's been working really well.
    Mr. Carter. What about the drive-through testing? Have you 
had any of that in Michigan as well?
    Governor Whitmer. Yes, we're doing a lot of drive-through 
testing. In fact, I went and did a drive-through COVID test as 
well as a serologic test. I maybe should have practiced before 
I did it because I made a funny face after that swab came out. 
But I think that it was so easy, so fast, and I'm really 
encouraging more people to do this.
    And I think that it's going to be really important that we 
demystify getting COVID tests, and that we encourage people to 
do this. The more people that get tested, the more information 
we'll have as to how rampant COVID is and how we keep it from 
spreading.
    And I also think that early on, there were so few tests 
that we had to be very prescriptive in the few people that 
would get them, and now it's easier and we need to all 
encourage people to get this testing done.
    Mr. Carter. Governor Polis, have you had the drive-through 
testing sites in Colorado as well?
    Governor Polis. Yes. We were one of the first in the 
country to have drive-through testing 2 months ago. It's now a 
big part of what we're doing. In fact, at our largest single 
testing site at the Pepsi Center in Denver, which can see up to 
1,000 people a day, it's actually a self-administered swab. So 
we no longer need the skilled professionals with the deep 
nasopharyngeal swab.
    There's two ways that we've validated it. One is a saliva 
test. The other is they just roll it around like a Q-tip-type 
item right at the base of the nose, self-administered, 
validated by our State lab, very easy, very scaleable.
    Mr. Carter. Well, I'm sure we won't agree on everything, 
but I do think we all agree that we all owe a great deal of 
debt to our healthcare professionals, who truly have risked 
their own health in order to provide healthcare services for 
others, for our citizens, and certainly, I want to include the 
pharmacists in that as well.
    So thank you, Madam Chair, and I yield back.
    Ms. DeGette. Thank you so much. And thanks to all the 
Members and the staff, and mostly thanks to our wonderful 
Governors for being our guinea pigs today.
    I'll give both of our Governors the opportunity to just say 
a few words as I did Governor Hutchinson. Governor Whitmer, 
would you like to say a few words?
    Governor Whitmer. Sure, thank you. I appreciate it, and 
I've appreciated all of your time today. As a member of the 
Executive Committee for the National Governors Association, I 
think it is incredibly important that--the communications from 
our organization to the Members of Congress, I hope that you 
have availed yourself of them. I know that the House has taken 
an important step in terms of helping States meet the needs of 
our citizens.
    We've got to remember that the enemy here is the virus, and 
it is crucial that we work very closely together to ensure that 
we meet the needs of our people so that we can reengage our 
economy in a way that avoids a second wave. And that's what 
we're all doing.
    And I'll tell you this, too: I am incredibly grateful for 
the members of our delegation, as well as my colleagues with 
whom I have been working very closely to provide the kind of 
thoughtful leadership that we need in these tough times. So 
thank you all for your time today.
    Ms. DeGette. Thanks, Governor.
    And my homie, Governor Polis, thanks for being with us 
today, and do you have a few words of wisdom to give us?
    Governor Polis. Well, first, thank you, Madam Chair, for 
convening this really important panel, because I think while 
the learning is important for the future and future crises, 
it's also important for this one, because COVID-19 is still 
with us. The crisis is still here. It will be with us not only 
until there is a vaccine but until that vaccine has been 
successfully distributed--and there's been some questions about 
that--to enough Americans to be able to achieve control of the 
virus.
    So the learning is now. The learning on coordination for 
personal protective equipment, the learning around better 
cohesion around a national testing strategy. We need to make 
these improvements in real time as we're going, of course, to 
prevent any future health crisis, but also to successfully 
manage this one, and to minimize the economic damage and 
minimize loss of life.
    Ms. DeGette. Great. Thank you. And I would be remiss if I 
didn't thank the ranking member, Congressman Guthrie. It was 
really his idea to have a hearing on testing, and I thought it 
went quite well.
    Brett, would you like to say a few words or----
    Mr. Guthrie. I just want to say thanks and how valuable the 
three of you who have been here today, knowing what all is 
going on in your States and your cities that you're responsible 
for. It's so important that we hear from you, because it's hard 
to do everything from Washington. Our country is so different.
    We've had Arkansas, Colorado, Michigan. And I know Michigan 
pretty well, my family's automotive supply--even in Michigan, 
you have the greatest industrial region in the world, in my 
opinion. I think you probably agree, Governor Whitmer, and I 
know the Congresspeople do. But you also--I was in Glen Arbor 
with the Moolenaars last August, and other than being 10 to 15 
degrees difference, you would think you're in west Kentucky. It 
is just an absolutely beautiful place, but so diverse and so 
different. And so, it's hard to do a one-size-fits-all, and so 
hearing what you guys are doing in your States is important for 
us.
    So thank you, Chair, for putting this together. Governors, 
thank you for being here, and appreciate the time.
    Ms. DeGette. Thank you so much, Congressman.
    And, just to let the committee members know, we have a 
robust oversight plan going. We are collecting documents. We're 
talking to witnesses. And we can expect to be having some 
hearings on the stockpile and on vaccines and other issues 
coming up in the following weeks, because this hearing, thanks 
to you, was such a swimming success. So thanks to everybody.
    I'd now like to ask unanimous consent to insert into the 
record the letter that Governor Polis referred to dated April 
9, 2020, from himself and Chair Federico Pena to the Colorado 
congressional delegation. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. I want to remind Members that, pursuant to 
committee rules, they have 10 business days to submit 
additional questions for the record to be answered by witnesses 
who have appeared before the subcommittee. I ask that witnesses 
agree to respond promptly to any questions should you receive 
them. And, with that, the subcommittee is adjourned. Thanks, 
everyone.
    [Whereupon, at 2:28 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
